Audit Report




OIG-12-021
Audit of the Department of the Treasury Forfeiture Fund’s
Fiscal Years 2011 and 2010 Financial Statements


December 6, 2011




Office of
Inspector General
Department of the Treasury
                                          DEPARTMENT OF THE TREASURY
                                                W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GEN ERAL




                                                  December 6, 2011


            MEMORANDUM FOR ERIC HAMPL, DIRECTOR
                           TREASURY FORFEITURE FUND

            FROM:                      Michael Fitzgerald
                                       Director, Financial Audits

            SUBJECT:                   Audit of the Department of the Treasury Forfeiture Fund’s Fiscal
                                       Years 2011 and 2010 Financial Statements

            I am pleased to transmit the attached audited Department of the Treasury Forfeiture
            Fund (TFF) financial statements for Fiscal Years 2011 and 2010. Under a contract
            monitored by the Office of Inspector General, GKA, P.C. (GKA), an independent
            certified public accounting firm, performed an audit of the financial statements of TFF as
            of September 30, 2011 and 2010 and for the years then ended. The contract required
            that the audit be performed in accordance with generally accepted government auditing
            standards; applicable provisions of Office of Management and Budget Bulletin No. 07-
            04, Audit Requirements for Federal Financial Statements, as amended; and the
            GAO/PCIE Financial Audit Manual.

            The following reports, prepared by GKA, are incorporated in the attachment:

                     •   Independent Auditor’s Report on Financial Statements;
                     •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                         and
                     •   Independent Auditor’s Report on Compliance with Laws and Regulations.

            In its audit, GKA found:

                     •   the financial statements were fairly presented, in all material respects, in
                         conformity with accounting principles generally accepted in the United States
                         of America;
                     •   no deficiencies in internal control over financial reporting that are considered
                         material weaknesses; and
                     •   no instances of reportable noncompliance with laws and regulations tested.

            GKA also issued a management letter dated October 31, 2011, discussing matters
            involving internal control over financial reporting that were identified during the audit but
            were not required to be included in the auditor’s reports. This letter will be transmitted
            separately.
Page 2

In connection with the contract, we reviewed GKA’s reports and related documentation
and inquired of its representatives. Our review, as differentiated from an audit
performed in accordance with generally accepted government auditing standards, was
not intended to enable us to express, and we do not express, an opinion on the financial
statements or conclusions about the effectiveness of internal control or compliance with
laws and regulations. GKA is responsible for the attached auditor’s reports dated
October 31, 2011 and the conclusions expressed in the reports. However, our review
disclosed no instances where GKA did not comply, in all material respects, with
generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member of
your staff may contact Catherine Yi, Manager, Financial Audits at (202) 927-5591.

Attachment
                                                                   1015 18th Street, NW
Certified Public Accountants                                            Suite 200
& Consultants                                                     Washington, DC 20036
                                                                    Tel: 202-857-1777
                                                                    Fax: 202-857-1778
                                                                    www.gkacpa.com




      Treasury Forfeiture Fund
        ACCOUNTABILITY REPORT
            Fiscal Year 2011
            DEPARTMENT OF THE TREASURY
                 WASHINGTON, D.C.




                               Member of the American Institute of Certified Public Accountants
                                       Message from the Director

I am pleased to present the fiscal year (FY) 2011 Accountability Report for the Treasury Forfeiture Fund (the
Fund). While highlighting the Fund’s financial and operational performance over the past year, this report also
focuses on some of the significant investigative achievements of our participating law enforcement agencies
this year. FY 2011 was another highly successful revenue year for the law enforcement bureaus participating
in the Treasury Forfeiture Fund, with earned revenue and recoveries of $868.1 million from all sources, as
compared to $1.1 billion in FY 2010.

The continued high-impact performance of the Fund reflects the ongoing hard work of our law enforcement
bureaus as well as Fund management’s emphasis on major case initiatives, asset forfeiture program training
and a focused approach regarding our performance measure which gauges revenue from high-impact cases.
The mission of the Fund is to affirmatively influence the consistent and strategic use of asset forfeiture by our
law enforcement bureaus to disrupt and dismantle criminal enterprise. It is our view that the greatest damage
to criminal enterprise can be achieved through large forfeitures; hence we have set a target level of 80 percent
of our forfeitures to be high-impact, i.e., cash forfeitures equal to or greater than $100,000. This target level is
up from 75 percent set for FY 2010 and prior years. For FY 2011, our member bureaus exceeded the target
with a performance level of 91.44 percent high-impact cash forfeitures. Contributing significantly to this
year’s outstanding performance by our member bureaus was the large forfeiture from the Deutsche Bank
major case investigated by IRS-CI that resulted in a forfeiture deposit of $404 million during FY 2011. Also
contributing to the banner year deposits were large equitable sharing deposits from the Department of Justice
forfeiture fund, reflecting the role of Treasury bureaus in those forfeitures. The Fund’s performance excluding
the large Deutsche Bank case deposit also exceeded the target at 81.74%.

During FY 2011, the Treasury Executive Office for Asset Forfeiture (TEOAF) continued its seminar series,
“Investigative and Forfeiture Issues Involving the Southwest Border” that was launched last year. The second
seminar of this series was held in December 2010 in El Paso, Texas. Topics for the well-attended conference
included bulk currency and post-interdiction financial investigations; human smuggling and trafficking; task
forces operating on the Southwest Border; law enforcement activities in Central and South America, and
international coordination; and Black Market Peso Exchange (BMPE) and trade based money laundering.
There were a number of case studies illustrating law enforcement efforts and best practices.

Also in FY 2011, TEOAF launched two new seminar series: “Investigative and Forfeiture Issues Involving
Money Service Businesses (MSBs)” and “Best Practices for Conducting Ponzi Scheme Investigations.” The
first seminar of the series “Investigative and Forfeiture Issues involving MSBs” was held in April in
Minneapolis. The subject of MSBs is very important and timely given concerns about money laundering
vulnerabilities associated with the MSB industry. The seminar agenda covered legal, regulatory and law
enforcement aspects of MSB enforcement, discussed various new programs and task forces of the Internal
Revenue Service (IRS) and Immigration and Customs Enforcement (ICE), that target MSBs and particularly
unlicensed MSBs, and featured case studies and best practices of law enforcement agencies investigating
MSB-related cases. The first in the Ponzi Scheme series of seminars was held in July in New York and
featured best practices investigative techniques for this type of fraud and highlighted the intricacies of real-life
cases. Emphasis was placed on victims, victim restitution and identifying promoters of the scheme.

The Treasury Forfeiture Fund continues in its capacity as a successful multi-Departmental Fund representing
the interests of law enforcement components of the Departments of Treasury and Homeland Security.
Member bureaus include the Internal Revenue Service’s Criminal Investigation (IRS-CI), the U.S. Secret
Service, Immigration and Customs Enforcement (ICE), and Customs and Border Protection (CBP). The U.S.
Coast Guard continues its close working relationship with the legacy Customs bureaus. We look forward to
another successful year in FY 2012.
                                                        Eric E. Hampl, Director
                                                        Executive Office for Asset Forfeiture
                                                        U.S. Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
                                                           Table of Contents


Section I: Overview

    Profile of the Treasury Forfeiture Fund ...............................................................................1
    Strategic Mission and Vision ...............................................................................................1
    Case Highlights....................................................................................................................2
    Program and Fund Highlights............................................................................................18
    Program Performance ........................................................................................................19
    Financial Statement Highlights..........................................................................................21

Section II: Independent Auditor’s Reports

    Independent Auditor’s Report on Financial Statements ....................................................25
    Independent Auditor’s Report on Internal Control over Financial Reporting...................27
    Independent Auditor’s Report on Compliance with Laws and Regulations......................29

Section III: Financial Statements and Notes

    Financial Statements:
       Balance Sheets .............................................................................................................31
       Statements of Net Cost.................................................................................................32
       Statements of Changes in Net Position........................................................................33
       Statements of Budgetary Resources.............................................................................34
       Notes to Financial Statements......................................................................................35

Section IV:

Required Supplemental Information........................................................................................52

Section V:

Other Accompanying Information...........................................................................................54
                                Treasury Forfeiture Fund
                              FY 2011 Management Overview


Profile of the Treasury Forfeiture Fund

The Treasury Forfeiture Fund (the Fund) is the receipt account for the deposit of non-tax forfeitures
made pursuant to laws enforced or administered by law enforcement bureaus that participate in the
Treasury Forfeiture Fund. The Fund was established in October of 1992 as the successor to the
Forfeiture Fund of the United States Customs Service. The Fund is a “special receipt account.” This
means the Fund can provide money to other federal entities toward the accomplishment of a specific
objective for which the recipient bureaus are authorized to spend money and toward other authorized
expenses. The use of Fund resources is governed by law, policy and precedent as interpreted and
implemented by the Department of the Treasury which manages the Fund. A key objective for
management is the long-term viability of the Fund to ensure that there are ongoing resources to
support member-bureau seizure and forfeiture activities well into the future. The emphasis of Fund
management is on high impact cases that can do the most damage to criminal infrastructure.

The Treasury Forfeiture Fund continues in its capacity as a multi-Departmental Fund, representing
the interests of law enforcement components of the Departments of Treasury and Homeland
Security. Our member bureaus include the Internal Revenue Service’s Criminal Investigation (IRS-
CI), the U.S. Secret Service, Immigration and Customs Enforcement (ICE), and Customs and Border
Protection (CBP). The U.S. Coast Guard continues its close working relationship with the legacy
Customs bureaus and functions in a member-bureau capacity.

The Executive Office for Asset Forfeiture (EOAF), which provides management oversight of the
Fund, falls under the auspices of the Under Secretary for Terrorism and Financial Intelligence.
EOAF’s organizational structure includes the Fund Director, Legal Counsel, Assistant Director for
Financial Management and Assistant Director for Policy. Functional responsibilities are delegated to
various team leaders. EOAF is located in Washington, D.C., and currently has 24 full time
equivalent positions.

Strategic Mission

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus that participate in the Treasury Forfeiture Fund to
disrupt and dismantle criminal enterprises.

Strategic Vision

Fund management works to focus the asset forfeiture program on strategic cases and investigations
that result in high-impact forfeitures. Management believes this approach incurs the greatest damage
to criminal organizations while accomplishing the ultimate objective – to disrupt and dismantle
criminal enterprises.



                                       SECTION I - OVERVIEW                                         1
Case Highlights

The following case highlights are intended to give the reader an idea of the types of investigative
cases worked by the Fund’s law enforcement bureaus during FY 2011 that resulted in the seizure and
forfeiture of assets. Such cases as those profiled below are consistent with the Strategic Mission and
Vision of the Treasury Forfeiture Program, which is to use high-impact asset forfeiture in
investigative cases to disrupt and dismantle criminal enterprises.


Internal Revenue Service, Criminal Investigation (IRS-CI)
Department of the Treasury

Deutsche Bank Forfeits $404 Million; Deferred Prosecution Agreement re Fraudulent Tax
Shelters Probe
Information included in the following forfeiture article is attributed to:
Wall Street Journal article dated December 22, 2010, entitled: Deutsche Bank to Pay More than $550 Million in Tax-
Shelter Settlement. The author of the article is Chad Bray.

In December 2010, Deutsche Bank AG agreed to pay $553.6 million and admitted criminal
wrongdoing to settle a long-running probe over fraudulent tax shelters that allowed clients to avoid
paying billions of dollars in U.S. taxes. Under a Non-Prosecution Agreement (Agreement) with the
U.S. Attorney’s Office in Manhattan and the Internal Revenue Service, Deutsche Bank will not be
prosecuted for its participation in about 15 tax shelters involving more than 2,100 customers between
1996 and 2002, including shelters marketed by accounting firm KPMG LLP and defunct law firm
Jenkens & Gilchrist PC.

Customers used the fraudulent shelters to generate more than $29 billion in bogus tax benefits,
mainly losses, according to the Agreement. The $553.6 million payment represents the total amount
of fees that the bank collected during the period, the taxes and interest the IRS was unable to collect
during the period, and a civil penalty of more than $149 million. The Agreement resolves an
investigation that stemmed from aggressive, prepackaged tax shelters that the government believed
were fraudulent.

More than a dozen people were charged criminally in the matter. KPMG itself signed a Deferred
Prosecution Agreement in which it admitted to the fraudulent sale and marketing of bogus tax
shelters and agreed to pay a $456 million penalty. The law firm, Jenkens & Gilchrist issued opinion
letters touting the legitimacy of the transactions underlying some of the shelters and marketed some
of the shelters. The firm closed its doors in 2007 after entering into an agreement avoiding
prosecution and paying a $76 million penalty.

Under the Agreement, Deutsche Bank admitted it knew or should have known that the transactions
underlying the shelters were intended to create the appearance of investment activity, but taxpayers
were entering into these transactions for the primary purpose of avoiding taxes, as opposed to making
profits on the transactions. As part of the Agreement, Deutsche Bank agreed not to be involved with
any type of prepackaged tax products and to adopt an ethics and compliance program. Deutsche
Bank also agreed to cooperate with prosecutors.



2            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
Schiavone Construction to Forfeit $20 Million for Public Works Hiring Fraud
Information included in the following forfeiture article is attributed to:
U.S. Department of Justice, Eastern District of New York, Press Release dated November 29, 2010, entitled: Schiavone
Construction to Pay $20 Million and Costs of Investigation to Resolve Public Works Hiring Fraud; an extract from IRS-
CI Major Case Reporting documentation dated April 1, 2011; and a New York Times article, entitled: Construction Giant
Admits Fraud Over Minority Firms, written by William K. Rashbaum, dated November 29, 2010.

In November 2010, the U.S. Attorney for the Eastern District of New York announced that Schiavone
Construction Co. LLC (Schiavone), a construction services corporation, would pay the United States
$20 million to resolve a multi-agency joint criminal investigation into fraud the company committed
in carrying out various public works contracts. As part of the resolution, Schiavone admitted that
between 2002 and 2007, certain employees falsely and fraudulently reported that disadvantaged
business enterprises (DBE) and minority and women-owned business enterprises (MWBE)
performed subcontracted work on federally funded public works contracts, including the
rehabilitation of New York City subway stations and the construction of the Croton Water Filtration
Plant in the Bronx, when, in fact, non-DBE and non-MWBE subcontractors performed the work.

Under the terms of its Non-Prosecution Agreement with the government, Schiavone represented that
it has undertaken various remedial measures to ensure compliance with the DBE and MWBE
programs for its current and future federally funded capital constructions projects. These measures
include: (i) establishing a position for an Ethics and Compliance Officer at Schiavone; (ii) creating
contractor minority compliance manual, a code of ethics and business conduct, and mandatory
compliance courses for its employees; (iii) removing the Schiavone employees directly involved with
the scheme; and (iv) continuing to assist law enforcement in its ongoing investigation of the fraud
regarding the four projects specified in the settlement.

The $20 million forfeiture has been deposited in the Treasury Forfeiture Fund.


                               Significant Equitable Sharing Revenue Case 1

Barclays Bank - Treasury Forfeiture Fund Receives $74 Million as an Equitable Share
Information included in the following forfeiture article is attributed to:
Federal Bureau of Investigation, New York Field Office, Press Release: “Barclays Bank PLC Agrees to Forfeit $298
Million in Connection with Violations of the International Emergency Economic Powers Act and the Trading with the
Enemy Act,” dated August 18, 2010.

Barclays Bank PLC, a United Kingdom Corporation headquartered in London, agreed to forfeit $298
million to the United States and to the New York County District Attorney’s Office in connection
with violations of the International Emergency Economic Powers Act (IEEPA) and the Trading with
the Enemy Act (TWEA). Barclays publicly admitted its illegal acts and announced implementation
of stringent compliance measures. The violations relate to transactions Barclays illegally conducted
on behalf of customers from Cuba, Iran, Sudan, and other countries sanctioned in programs
administered by Treasury’s Office of Foreign Assets Control (OFAC). Under IEEPA, it is a crime to
willfully violate, or attempt to violate sanctions administered by OFAC. TWEA makes it a crime to
willfully engage in financial transactions by, at the direction of, or for the benefit of Cuba or Cuban
nationals.


1
  Pursuant to 31 U.S.C. 9703(d)(2)(C), the Treasury Forfeiture Fund is authorized to deposit into the Fund all amounts
representing the equitable share of a Department of the Treasury law enforcement organization or the United States Coast
Guard from the forfeiture of property under any Federal, State, local or foreign law.
                                               SECTION I - OVERVIEW                                                    3
Not just once, but numerous times over more than a decade, Barclays stripped vital information out
of payment messages that would have alerted U.S. financial institutions about the true origins of the
funds. Barclays followed instructions, principally from banks in Cuba, Iran, Libya, Sudan and
Burma, not to mention their names in U.S. dollar payment messages sent to Barclay’s branch in New
York and to other financial institutions located in the United States. Barclays routed U.S. dollar
payments through an internal Barclays account to hide the payments’ connection to OFAC-
sanctioned entities and amended and reformatted the U.S. dollar payment messages to remove
information identifying the sanctioned entities.

A Criminal Information was filed August 16, 2010, in the U.S. District Court for the District of
Columbia charging Barclays with one count of violating the IEEPA and one count of violating the
TWEA. Barclays waived indictment, agreed to the filing of the information, and accepted and
acknowledged responsibility for its criminal conduct. Barclays agreed to forfeit the funds as part of
the deferred prosecution agreements reached with the Federal Government and the New York County
District Attorney’s Office.

Of the $149 million forfeited to the U.S. Government, the Treasury Forfeiture Fund received $74
million as an equitable share from the Assets Forfeiture Fund of the U. S. Department of Justice. The
Federal Bureau of Investigation (FBI), a member bureau of the Justice Assets Forfeiture Fund, was
the lead agency in the case and the Treasury Forfeiture Fund received an equitable share of the
forfeiture proceeds representing IRS Criminal Investigation’s (IRS-CI’s) contributions to the
forfeiture.


Immigration and Customs Enforcement (ICE)
Department of Homeland Security

Virginia Business Owners Forfeit $1.2 Million for Harboring Illegal Aliens
Information included in the following forfeiture article is attributed to:
Immigration and Customs Enforcement (ICE) News Release dated November 23, 2010, “Virginia business owners
sentenced to 18 months for harboring illegal aliens, forfeit $1.2 million.”

In November 2010, two business owners were sentenced to serve 18 months in prison followed by
two years probation and ordered to forfeit $1.2 million for their roles in a scheme to hire and harbor
illegal aliens. Bao Ping Wang, 44, pled guilty to harboring illegal aliens and Trang “Tammy” Lu, 45,
pled to misprision of a felony. Hi-Tech Trucking, Inc., a commercial trucking entity established by
Wang and Lu for the delivery operations of SeaLands Food, another business operated by Wang and
Lu for the distribution of seafood to Asian restaurants and markets throughout the mid-Atlantic
region, was sentenced to three years probation for conspiring to harbor illegal aliens.

Hi-Tech Trucking, Inc. agreed to forfeit $1,225,428 in illegal proceeds gained as a result of the
offense and to pay a $100,000 fine. In addition, Wang was also ordered to pay $4,000 and agreed to
deportation from the United States after service of his sentence. Lu was ordered to pay $5,000 and
agreed that she will comply with programs created by the Department of Homeland Security and
Social Security Administration to screen al employees for determining workforce eligibility.

Wang and Lu both managed Hi-Tech Trucking Inc., and SeaLands Food. From 2006 through 2009,
Wang employed a workforce at these companies consisting of both legal and illegal aliens, with Lu’s
knowledge or reckless disregard of the fact that a number of their employees were illegally present in

4           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
the country and illegally working without proper authorization. Federal investigators determined that
Wang, with Lu’s knowledge, harbored and employed between 6 to 24 illegal aliens at these
companies at any point in time from 2006 through 2009.

Wang and Lu provided housing and meals of the illegal alien employees at three residences that they
owned in Richmond, Virginia. Bank records for Hi-Tech Trucking, Inc accounts were used for
payments for rental properties for employees and utilities for the three residential properties at which
employees were housed, as well as payments to employees, including illegal aliens.


Jesse William Fadick, 64, Hiring Illegal Aliens at Wholesale Bakery, forfeits $800,000
Information included in the following forfeiture article is attributed to:
Immigration and Customs Enforcement (ICE) News Release, “Former owner, employees at San Diego bakery plead
guilty to charges stemming from ICE worksite investigation, dated November 30, 2010.

The former owner of a San Diego wholesale bakery and four other bakery employees pleaded guilty
in U.S. District Court to knowingly hiring illegal aliens, the result of an investigation led by ICE with
assistance from the Social Security Administration, Office of the Inspector General. Jesse William
Fadick (Fadick), 64, the former owner of S&S Bakery, Inc., pleaded guilty to knowingly hiring 10 or
more illegal aliens within a 12-month period. Fadick agreed to forfeit $800,000 in proceeds as a
result of the offense and paid the forfeiture in full.


14 People Charged with Conspiracy to Smuggle Cash into Mexico, Forfeit $3.1 Million
Information included in the following forfeiture article is attributed to:
Immigration and Customs Enforcement (ICE) News Release, “14 Charged with Conspiracy to Smuggle $3.1 Million in
Cash into Mexico,” dated September 29, 2010.

Fourteen passengers aboard a tour bus bound for Mexico were arrested and charged for knowingly
conspiring to evade currency transactions reporting requirements by concealing $3.1 million of U.S.
Currency in luggage. The 14 passengers, seven U.S. citizens and 7 Mexican nationals, were arrested
at the Hidalgo, Texas, Port of Entry after an intensive inspection of the tour bus resulted in discovery
of 17 pieces of luggage, each containing hundreds of thousands of dollars in U.S. Currency. The cash
was discovered wrapped in deflated air mattresses in all the luggage pieces.

It is not a crime to carry more than $10,000, but it is a federal offense not to declare currency or
monetary instruments totaling more than $10,000 or more to a Customs and Border Patrol (CBP)
officer upon entry into or exit from the United States. It is also a crime to conceal money with the
intent to evade reporting requirements. Failure to declare the currency may result in seizure of the
currency and/or arrest. An individual may petition for the return of the currency seized by CBP
officers, but the petitioner must prove that the source and intended use of the currency was legitimate.


Maryland Woman Pleads Guilty to Smuggling Cash to Jamaica, Forfeits $562,190
Information included in the following forfeiture article is attributed to:
Immigration and Customs Enforcement (ICE) News Release, “Maryland woman pleads guilty to smuggling cash to
Jamaica,” dated October 13, 2010.

In October 2010, Jean Brown (Brown), 41, of Catonsville, Maryland, pled guilty to bulk cash
smuggling following an investigation led by ICE. According to Brown’s plea agreement, shortly
before December 25, 2008, Brown gave three other individuals a total of $562,190 in cash to conceal
in their luggage before boarding a flight to Montego Bay, Jamaica. Brown provided the plane tickets,
                                           SECTION I - OVERVIEW                                                  5
and instructed the individuals not to declare the cash in customs and to deliver the money to Brown’s
family who would meet them in the airport in Jamaica.

On December 25, 2008, Brown drove the individuals to the Baltimore-Washington International
Airport where they boarded their flight to Jamaica. Before leaving the United States from Maryland,
none of the individuals declared that they were carrying more than $10,000, as required by federal
law. When the flight arrived in Jamaica, the individuals presented their Jamaican Customs
declaration form in which they failed to declare the money to Jamaican Customs. The form states
that if a traveler is carrying more than $10,000 in U.S. Currency, the traveler must declare the money
prior to gaining entry into the country. Jamaican customs officers discovered the money in the
individuals’ luggage. As part of her plea agreement, Brown agreed to a forfeiture judgment of
$562,190.

                                              Good Government

              Law Enforcement Seizures by Member Bureaus that May Not Result in
             Treasury Forfeiture Fund Deposits but are Important to Law Enforcement
                                    and the American Public

Marc Knapp, 35, Pleads Guilty to Criminal Conduct Involving Illegal Exports to Hungary and
Attempted Exports to the Islamic Republic of Iran and Russia
Information included in the following forfeiture article is attributed to:
Immigration and Customs Enforcement (ICE) News Release, “California man pleads guilty to attempting to
export military items to Iran,” dated January 13, 2011.

In January 2011, Marc Knapp (Knapp), 35, of Simi Valley, California, pled guilty to engaging in a
seven-month course of criminal conduct involving illegal exports to Hungary and attempted exports
to the Islamic Republic of Iran and Russia. This guilty plea resulted from an investigation conducted
by ICE and the Defense Criminal Investigative Service (DCIS).

The information charged Knapp with violating the International Emergency Economic Powers Act
(IEEPA) and the Arms Export Control Act. As set forth in the Information, as well as affidavits
accompanying a Criminal Complaint and various search warrants, Knapp's conduct involved the
illegal export and attempted export of the following United States defense articles:

    1) A Tiger fighter jet;
    2) Five anti-gravity flight suits, which are worn by pilots to counteract the forces of gravity and
       acceleration;
    3) one emergency procedures manual, which is designed for use by pilots during in-flight
       emergencies in various fighter jets;
    4) three (3) electronic versions of the emergency procedures manual;
    5) four survival radios, which are hand-held search and rescue radios used primarily by U.S. Navy
       pilots as an emergency locator beacon; and
    6) two military aircraft ejection seats.

According to documents that have been unsealed and information placed in the court record, a
cooperating defendant introduced Knapp to an undercover ICE special agent (undercover agent).
Between December 2009 and July 2010, the undercover agent met with Knapp on several occasions,
at locations in California, Pennsylvania, Delaware, and Budapest, Hungary.

6             TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
Knapp first broached the idea of obtaining an F-5 fighter jet from a source in California to sell to the
undercover agent in January 2010. Knapp told the undercover agent that the "Iranians" might be
interested in various items, including the F-5 fighter jet, and stated that he was not concerned whether
the jet or the other items ended up in Iran.

During a January 2010 meeting in California, Knapp took the undercover agent to an airport to
inspect the aircraft. Over the course of the next several months, the undercover agent and Knapp had
multiple conversations regarding transporting the aircraft from California to a freight forwarder in
Delaware; determining appropriate transshipment points to Iran; and devising a payment scheme.
They also arranged to meet in Budapest, Hungary, to discuss the purchase.




                             Figure 1 F-5 Tiger Fighter Jet Involved in Sting Operation

        When a certain F-5 Tiger fighter jet outlived its military use years ago, it was sold for surplus, and the plane was purchased
        by a California resident. The owner leased it as a big prop for Hollywood movies. This year, the fighter jet became the star
        of a real-life sting - against an American accused of trying to sell it to Iran. The F-5 was the centerpiece of an undercover
        Homeland Security investigation that stretched from Philadelphia to Los Angeles to Budapest, Hungary.

        An arms broker from California has been charged with trying to sell the jet for over $3 million to Philadelphia-based agents
        who were pretending to work on behalf of the Iranian military. He was sentenced in September 2011 to almost 5 years in
        prison



In April 2010, the undercover agent and another undercover law enforcement officer posing as an
Iranian intermediary, met with Knapp in Budapest. During the meetings, Knapp explained that he
would have a contact fly the F-5 from California to the East Coast, where it would subsequently be
crated and shipped to Hungary for transshipment to Iran. Knapp also discussed making payment for
the F-5 look like a "gift" or a "loan.”

In July 2010, Knapp sent a contract for the F-5 fighter jet to the undercover agent via the United
States mail. The contract set forth the timing for flying the F-5 to Delaware after the undercover
agent transferred $3.25 million into a bank account specified by Knapp. The undercover agent asked
                                                       SECTION I - OVERVIEW                                                              7
whether he could tell the Iranians that Marc Knapp personally guaranteed the aircraft, to which
Knapp replied that he could. The parties then signed the contract. He stated that he would use a false
name and said that he would describe the item to be shipped as a "Museum Display Shell."
Following the meeting, federal agents placed defendant under arrest.

        "This case demonstrates the threat to our national security posed by those, like Knapp, who
        are willing to trade with Iran and attempt to provide that nation with American goods and
        technology, particularly military components. I applaud our law enforcement partners for their
        exceptional dedication in pursuing this major investigation.”
                                                                         U.S. Attorney Oberly


                                              Good Government

            Law Enforcement Seizures by Member Bureaus that May Not Result in
      Treasury Forfeiture Fund Deposits but are Valuable to the International Community


ICE and CBP Officials Return Artifacts to the People’s Republic of China
Information included in the following forfeiture article is attributed to:
ICE News Release dated March 11, 2011, “ICE and CBP Officials Return Artifacts to the People’s Republic of China”

ICE and CBP officials repatriated a number of ancient Chinese artifacts seized as a result of ICE and
CBP investigations. Most of the objects repatriated were part of Operation Great Wall, an initiative
targeting illicit importations originating from the People’s Republic of China. Following the signing
of a bilateral agreement between the United States and the People’s Republic of China in 2009, both
countries have been working together closely to prevent the illicit trafficking of archaeological
objects.

The artifacts being returned include:

        2 Northern Wei Dynasty terracotta horses – A.D. 386-535
        Northern Qi Dynasty limestone Buddha - A.D. 550-577
        7 Sui Dynasty Pottery Horses with Riders – A.D. 581-618
        Tang Dynasty Horse Sculpture – A.D. 618-907
        Song Dynasty Bodhisattva head – A.D. 960-1279
        Ming Dynasty Stone Frieze – A.D. 1368-1644
        Qing Dynasty Ceramic Vase – A.D. 1616-1840

The pottery sculptures of horses and riders from the Sui and Tang Dynasties were likely buried in
tombs. Having a horse was a sign of wealth, and only those of a certain rank were allowed to use
them. The tombs these likely came from were, therefore, those of aristocrats.




8            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
                 Figure 2    7 Sui Dynasty Pottery Horses with Riders - A.D. 581-618


While the Northern Qi Dynasty is usually considered a period of political unrest, it is known to art
historians as a time when the arts flourished through interaction between Chinese and non-Chinese
artisans.

        “The items we are returning to the People’s Republic of China today are delicate, but tangible,
        ancient works of art that are an important part of China’s heritage. While seizing, forfeiting
        and repatriating these treasures is indeed reason for celebration, our long-term goal is to
        reduce the incentive for further destruction of ancient tombs and temples, where so many of
        these objects are dug up or chiseled off and pilfered.”

                                                           Kumar Kibble, Deputy Director
                                                           Immigration and Customs Enforcement

ICE plays a leading role in investigating crimes involving the illicit importation and distribution of
cultural property. ICE uses its investigative authority to seize cultural property items if they were
illegally imported into the United States. It also investigates the illegal trafficking of artwork,
especially works that have been reported lost or stolen.


ICE Returns to French Government Stolen Degas Painting Missing for 37 Years
Information included in the following forfeiture article is attributed to:
ICE News Release dated January 21, 2011, “ICE returns to French government stolen Degas painting missing for 37
years ”

In January 2011, ICE Director John Morton presented a painting by Edgar Degas, “Blanchisseuses
Souffrant Des Dents” to the acting French Ambassador to the United States, François Rivasseau. The
painting, completed between 1870 and 1872, depicts two views of a laundress with a toothache.

In 1961, the painting was loaned to the Musée Malraux in Le Havre in Normandy, France, but was
stolen from the museum in December 1973. In October 2010, the Degas painting appeared in the
Sotheby’s New York catalogue for a pending auction of Impressionist and modern art. INTERPOL
notified ICE, which initiated the investigation. ICE agents tracked the provenance of the piece and

                                             SECTION I - OVERVIEW                                                 9
authenticated many markings on the back of the painting, including inventory marks by the Louvre,
which confirmed the painting offered for sale was the stolen work.




                      Figure 3      Edgar Degas Painting, Missing 37 Years Returned to France



        “On behalf of ICE, it is a great privilege to return this painting that rightfully belongs to the
        people of France, and reflects a part of your nation’s history and rich heritage. ICE’s Cultural
        Property, Art and Antiquities Unit was established to identify, investigate and return cultural
        treasures such as this stolen work of art, to their rightful owners and countries of original.”

                                                           John Morton, Director
                                                           Immigration and Customs Enforcement



                                  ICE Seizes Phony Candy Easter Eggs -
                                           Filled with Cocaine

ICE Arrests Man Attempting to Smuggle in Cocaine Concealed in Phony Easter Eggs
Information included in the following forfeiture article is attributed to:
News Release dated December 27, 2010, “Feds find cache of cocaine inside phony candy Easter eggs”

In December 2010, Esteben Galtes, 23, of Miami, was taken into custody at Los Angeles
International Airport by ICE Agents after attempting to smuggle in a cache of cocaine concealed
inside dozens of phony candy Easter eggs. His arrest came after CBP officers searched Galtes’
luggage and discovered more than 14 pounds of cocaine, much of it camouflaged as pastel-colored,
egg-shaped candies.




10           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
                    Figure 4      Cocaine Camouflaged as Easter Candy for Smuggling Attempt


Galtes told CBP officers the eggs were for his two children. The remainder of the cocaine was
secreted under the cardboard bottom of a paper shopping bag. The seized cocaine had an estimated
street value of more than $100,000.

        "Drug traffickers are always trying novel ways to conceal their contraband, but cocaine camouflaged
        Easter candy is one of the more unusual tactics we’ve come across.”

                                                            Claude Arnold, Special Agent in Charge – Los Angeles
                                                                           Immigration and Customs Enforcement


Customs and Border Protection (CBP)
Department of Homeland Security
 CBP has had a productive year for seizures of cash and drugs at the border and border regions;
             the following represents a sample of their law enforcement seizures.

Note about CBP Narratives: The major case narratives selected for CBP are seizures, which may or may not be
forfeited and on deposit by the end of the fiscal year. Investigative narratives for other member bureaus include cases
for which forfeiture deposits occurred during FY 2011.

CBP Officers Seize $799,000 While Screening Traffic Going into Mexico
Information included in the following forfeiture article is attributed to:
News Release dated October 21, 2010, “CBP seizes more than $799K in Undeclared Currency and Several Weapons at
Nogales Port”

On October 20, 2010, CBP officers screening vehicles heading out of the country to Mexico stopped
the driver of a 2010 Chevy pickup. While inspecting the vehicle for goods being exported illegally,
officers noticed a discrepancy in the roof of the pickup’s hood and decided to take a closer look.
Officers used an x-ray system to assist with the inspection and noticed anomalies when looking at
the images. Further inspection revealed a compartment that when opened, contained bundles of
currency and several weapons.

                                              SECTION I - OVERVIEW                                                    11
        Figure 5 $799,000 in Undeclared Currency Seized from Hidden Compartment in Pickup Truck


As a result of the inspection, officers seized more than $799,000 in cash and 4 handguns. The
driver, a 25-year-old man and citizen of Mexico, was arrested and turned over to ICE for further
investigation and prosecution.


CBP Officers Seize more than $480,000 at Douglas Port of Entry
Information included in the following forfeiture article is attributed to:
News Release dated December 16, 2010, “CBP Officers Seize More Than $480,000 at Douglas Port of Entry”

In mid-December 2010, CBP officers were screening traffic going into Mexico as part of a
southbound operation. The officers selected a pickup truck for further inspection. The vehicle was
being driven by a 20-year-old man identified as a Mexican national. With the assistance of a CBP
K-9 team, the CPB officers discovered that the man was attempting to smuggle more than $480,000
in undeclared currency out of the United States by concealing the money in an elaborately made
hydraulic compartment constructed in the side wall of the bed of the pickup. CBP officers seized the
vehicle and the undeclared currency. The man was turned over to the custody of Immigration and
Customs Enforcement (ICE) for further investigation.


CBP Officers Seize $565,950 in Undeclared Currency
Information included in the following forfeiture article is attributed to:
News Release dated November 19, 2010, “CBP Seized $565,950 in Undeclared Currency, 43 Dead, Skinned Iguanas and
Heroin at Laredo Port”

In mid-November 2010, at Lincoln-Juarez Bridge, CBP officers observed a vehicle that had been
turned northbound from the automated toll southbound lane and referred it for a secondary
examination. CBP officers conducted an intensive examination and discovered 14 bundles
containing a total of $565,950 in undeclared currency. CBP officers seized the currency and turned
the 45 year old driver over to ICE for further investigation.




12          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
CBP Officers Seize $462,566 in Undeclared Currency
Information included in the following forfeiture article is attributed to:
News Release dated February 14, 2011, “CBP U.S. Border Patrol Seizes More Than $462,000 in Cash”

In February 2011, U.S. Border Patrol agents on patrol in Carlsbad, California, spotted a pickup truck
being driven in an erratic and suspicious manner. Agents conducted an immigration stop on the
vehicle and the driver’s nervous demeanor and inconsistent responses led agents to request the
assistance of a Border Patrol K-9 team. The K-9 team performed a cursory inspection of the vehicle
which resulted in a positive alert to the passenger-side front fender.




Figure 6 42 Cellophane-wrapped Bundles Containing $462,566 Seized during an Immigration Stop


Agents performed an interior inspection of the truck and discovered an aftermarket compartment on
the passenger side near the engine firewall. Agents gained access to the compartment, where they
discovered 42 cellophane-wrapped bundles containing $462,566 in U.S. Currency. The Border Patrol
processed the currency and Silverado for forfeiture proceedings pending the outcome of the ICE
investigation of the suspected smuggler.


CBP Officers Seize $420,440 in Undeclared Currency
Information included in the following forfeiture article is attributed to:
News Release dated January 18, 2011, “CBP Seizes in Excess of $400,000 in Undeclared Currency”

In mid January 2011, CBP officers conducting southbound operations in cooperation with the Border
Enforcement Security Task Force (BEST) at the El Paso port of entry Monday morning stopped a 46
year old man from leaving the country with $420,440. CBP officers selected a vehicle for an
intensive exam. The driver said he had nothing to declare during routine questioning by the CBP
officer.

CBP officers initiated an intensive exam during which CBP currency and firearms detector sniffing
dog alerted to the vehicle. CBP officers noted discrepancies in the vehicle seats and found 16
bundles of U.S. Currency hidden within the seats. The currency hidden in the seats totaled $420,440.
The driver, a Mexican citizen, was turned over to ICE agents and the vehicle was seized.




                                            SECTION I - OVERVIEW                                   13
        Figure 7     CBP Officers Seize $420,440 in Undeclared Currency Hidden in Vehicle Seats



CBP Officers Seize $381,060 in Currency Bound for Mexico
Information included in the following forfeiture article is attributed to:
News Release dated February 23, 2011, “CBP Seizes $381K in Currency Bound for Mexico in Brownsville”

CBP officers and Border Patrol agents conducting outbound enforcement operations at the
Brownsville port of entry seized $381,060 in bulk U.S. Currency. In February 2011, CBP officers
and Border Patrol agents working outbound enforcement operations at the Brownsville and
Matamoros International Bridge came in contact with a vehicle as it attempted to exit the U.S. and
enter Mexico. The driver, a 19 year old U.S. citizen, traveling with two minors was referred to a
secondary inspection. During the secondary inspection of the vehicle, 15 packages of bulk U.S.
Currency were discovered hidden in the vehicle. CBP seized the currency and the vehicle.


CBP Officers and Border Patrol Agents Seize $277,405 in Bulk U.S. Currency at the
Brownsville Port of Entry
Information included in the following forfeiture article is attributed to:
News Release dated October 12, 2010, “CBP Officers and Border Patrol Agents at Brownsville Port of Entry Seize
$277,405 During Outbound Enforcement Operation”

In mid October 2010, CBP Officers and Border Patrol agents working outbound enforcement
operations at the Gateway International Bridge came in contact with a vehicle as it attempted to exit
the United States and enter Mexico. The vehicle driven by a 35 year old Mexican citizen was
referred for further inspection. A search of the Ford resulted in the discovery of 10 packages of bulk
U.S. Currency totaling $277,405. CBP officers seized the currency and the vehicle. The case was
referred to ICE for further investigation.




14           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
                   Figure 8   $277,405 in Bulk Currency Seized at Brownsville Port of Entry



CBP Officers Seize $257,280 in Undeclared Currency Bound for Mexico
Information included in the following forfeiture article is attributed to:
News Release dated February 23, 2011, “CBP Officers in Calif. Intercept $257,280 in U.S. Currency Bound for Mexico”

In February 2011, CPB officers seized $258,280 in undeclared U.S. Currency during an outbound
enforcement operation at the Andrade port of entry. The incident occurred when officers conducting
outbound inspections stopped a 22 year old female U.S. citizen and resident of Mira Loma,
California, driving a tan 2004 Chevrolet Trailblazer. An intensive examination of the Trailblazer that
included a canine unit screening the vehicle led to the discovery of 16 wrapped packages containing
U. S. currency concealed inside a non-factory compartment in the rear passenger floor area.

CBP officers arrested the driver and turned her over to the custody of ICE agents for further
investigation. CBP seized the money and the vehicle.




        Figure 9       $257,280 in Undeclared U. S. Currency Seized from Mexico-bound Vehicle




                                             SECTION I - OVERVIEW                                                15
U. S. Secret Service
Department of Homeland Security


                                          Case Update - AdSurf Daily

                This case was first reported on behalf of the U.S. Secret Service in the
                 FY 2010 Accountability Report for the Treasury Forfeiture Fund

In Rem Forfeiture of $65 Million in Funds Seized from Bank Accounts Associated with the “Ad
Surf Daily (ASD)” Ponzi Scheme
Information included in the following forfeiture article is attributed to:
United States District Court for the District of Columbia, Default Judgment and Final Order of Forfeiture dated January
4, 2010 re: United States of America, Plaintiff, v. 8 Gilcrease Lane, Quincy Florida 32351 et al., Defendants; copy of
Email: dated September 14, 2011, captioned “RE: FY 2011 Accountability Report-Final Draft for Clearance –Initial
draft due to GKA by October 5, 2011; and United States Attorney’s Office, District of Columbia, Press Release:
undated, “Final Order of Forfeiture Issued in ASD Civil Forfeiture Action.”

In January 2010, approximately $65 million in funds seized from bank accounts associated with the
“Ad Surf Daily (ASD)” Ponzi-style fraud case were forfeited to the U.S. Government. The
government anticipated a number of victims’ claims against these forfeitures.

                                                Victim Restitution

In September 2011, the Treasury Executive Office for Asset Forfeiture forwarded the necessary
paperwork to return $54,762,447 to 8,482 victims of the AdSurf Ponzi Scheme.

Case Background: On August 5, 2008, the United States Government commenced a civil action in
rem against 17 defendant properties seeking their forfeiture on the grounds that they constituted the
proceeds of fraud and money laundering. The complaint alleged the existence of unlawful internet
operations in the nature of “Ponzi-style” or “pyramid” frauds, which swindled many millions of
dollars out of victims who sent money to the scheme’s operators.

The In Rem Civil Complaint asserted that ASD was operating a paid auto-surfing program and that
program was merely a Ponzi scheme. Although ASD was careful to avoid callings its members
“investors,” in an apparent effort to avoid regulatory scrutiny, ASD promoted paid membership by
offering its members a 125% return on their membership fees. In addition, ASD encouraged
members to recruit new members by paying commissions for referrals. ASD paid the source of a
referral a percentage of each newly referred member’s fees.

According to the In Rem Civil Complaint, the investigation revealed that ASD did not appear to sell
any independent products or services sufficient to generate an income stream needed to support the
rebates and commissions that it promised its members. Further, the “advertisers” were not paying
ASD for advertising services at all; instead, they were paying ASD with the expectation that ASD
would provide a full rebate and additional revenue. Thus, absent continuous membership growth (an
impossibility) ASD had no means to generate the returns it represented.




16           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
Tax and Trade Bureau (TTB), Department of the Treasury

                                        Equitable Sharing Revenue Case

Tarbell Inc. Agrees to Forfeit $1.75 Million of which $875,000 is Shared with the Treasury
Forfeiture Fund re Licensing Violations
Information included in the following forfeiture article is attributed to:
Lori Shull article in Watertown Daily Times, April 14, 2010, “Tarbell agrees to get licenses”

Tarbell Inc., a cigarette manufacturer on the Akwesasne reservation voluntarily agreed to comply
with federal tax laws and obtain licenses from the government, and agreed to forfeit $1.75 million to
the Bureau of Alcohol, Tobacco, Firearms and Explosives of the Department of Justice as payment
for selling unlicensed cigarettes. The company also agreed not to sell cigarettes over the Internet,
which violates federal law. The financial settlement does not mean that the company admits any
wrongdoing, but future violations would be criminal offenses. Of the amount forfeited, $875,000
was equitably shared with the Treasury Forfeiture Fund representing the role of TTB in the forfeiture.

U. S. Coast Guard
Department of Homeland Security

         The U.S. Coast Guard continues its close working relationship with the legacy Customs
         bureaus and functions in a member-bureau capacity. The Coast Guard also maintains a
         close working relationship with the Drug Enforcement Administration (DEA) of the
         Department of Justice, assisting with drug boat interceptions on the high seas which are
         then turned over to the Department of Justice for prosecution.



Coast Guard Cutter Thetis Intercepts Go Fast Drug Boat off the Coast of Panama
Information included in the following forfeiture article is attributed to: Immigration and Customs Enforcement New
Release: December 30, 2010, “3 men charged in maritime drug smuggling operation.”

On December 17, 2010, the U.S. Coast Guard Cutter Thetis was conducting a routine maritime patrol
in international waters off the Panamanian coastline. During this patrol, the Cutter Thetis launched
its HITRON helicopter to assist in the patrol. While approximately 75 nautical miles north of Colon,
Panama, the U.S. Coast Guard helicopter observed and approached an un-flagged go-fast style vessel
heading north. After observing numerous bales on the deck of the vessel and several fuel drums, U.S.
Coast Guard crew members on board the helicopter believed the vessel to be engaged in narcotics
trafficking.

After receiving authorization, the U.S. Coast Guard crew member fired warning shots across the bow
of the go-fast vessel and the vessel stopped its engines. Shortly thereafter, a Coast Guard team
boarded the vessel and observed approximately 62 bales on the deck of the vessel. These bales later
field-tested positive the presence of cocaine. The 62 bales of suspected cocaine were moved to a
secure facility, where it was determined that the cocaine weighed approximately 3,300 pounds.




                                               SECTION I - OVERVIEW                                                  17
Program and Fund Highlights

The Treasury Forfeiture Fund is a “special receipt account.” Such accounts represent federal fund
collections earmarked by law for a specific purpose. The enabling legislation for the Treasury
Forfeiture Fund (31 U.S.C. § 9703) defines those purposes for which Treasury forfeiture revenue may
be used. Once property or cash is seized, there is a forfeiture process. Upon forfeiture, seized
currency, initially deposited into a suspense account, or holding account, is transferred to the Fund as
forfeited revenue. Once forfeited, physical properties are sold and the proceeds are deposited into the
Fund as forfeited revenue. It is this forfeiture revenue that comprises the budget authority for
meeting expenses of running Treasury’s forfeiture program.

Expenses of the Fund are set in a relative priority so that unavoidable or “mandatory” costs are met
first as a matter of policy. Expenses may not exceed revenue in the Fund. The Fund has several
different spending authorities. Each of them is described below.

Mandatory Authority

The mandatory authority items are generally used to meet “business expenses” of the Fund, including
expenses of storing and maintaining seized and forfeited assets, valid liens and mortgages,
investigative expenses incurred in pursuing a seizure, information and inventory systems, and certain
costs of local police agencies incurred in joint law enforcement operations. Following forfeiture,
equitable shares are paid to state and local law enforcement agencies that contributed to the seizure
activity at a level proportionate to their involvement.

It is a strategic goal of the Fund to emphasize and monitor high impact forfeitures. To make
significant forfeitures requires longer, more in-depth investigations. To this end, Fund management
emphasizes the use of mandatory funding authorities that fuel large case initiatives. These authorities
include the Purchase of Evidence and Information, expenses associated with Joint Operations,
Investigative Expenses Leading to Seizure, and Asset Identification and Removal Groups. In recent
years, funding provided to computer forensic investigative tools has yielded high impact results.

Secretary’s Enforcement Fund

The Secretary’s Enforcement Fund (SEF) is derived from equitable shares received from the Justice
Department’s forfeiture fund for work done by law enforcement bureaus participating in the Treasury
Forfeiture Fund leading to Justice forfeitures. SEF revenue is available for federal law enforcement
purposes of any Treasury law enforcement organization or law enforcement bureau that participates
in the Treasury Forfeiture Fund. In FY 2011, the Fund expensed just under $1 million in SEF
authority as compared to $2.9 million in FY 2010, a decrease of $1.9 million or 66 percent. The
allocation of SEF resources to bureaus was restricted in FY 2010 and FY 2011 by the need to meet
enacted budget rescissions.

Super Surplus

Super Surplus represents the remaining unobligated balance after an amount is reserved for Fund
operations in the next fiscal year. Super Surplus can be used for any federal law enforcement
purpose. In FY 2011, the Fund expensed $102.5 million in Super Surplus authority as compared to
$78.9 million in FY 2010, an increase of 30 percent.

18         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
Program Performance

Strategic View

Fund management continues to focus on strategic cases and investigations that result in high-impact
forfeitures. We believe this approach affects the greatest damage to criminal organizations while
accomplishing the ultimate objective – to disrupt and dismantle criminal activity. To make
significant forfeitures requires longer, more in-depth investigations. To this end, Fund management
emphasizes the use of mandatory funding authorities that fuel large case initiatives including
Purchase of Evidence and Information, expenses associated with Joint Operations, Investigative
Expenses Leading to Seizure, Asset Identification and Removal teams and state-of-the-art Computer
Forensics capability. FY 2011 was another banner year for major case forfeiture deposits.

In addition, the Fund continues to support record levels of sharing of federal forfeitures with the state
and local and foreign governments that contributed to the successful seizure and forfeiture activity of
the Fund. Reflecting the higher revenue level for FY 2011, the Fund expensed $68.5 million for
equitable sharing expenses in FY 2011 as compared to $454.6 million expensed in FY 2010.
Included in these sums are $0.2 million and $131.7 million for equitable sharing expenses with
foreign countries that assisted in cases during FY 2011 and FY 2010, respectively. These are
important resources afforded by policy of the Treasury Forfeiture Fund to protect and preserve the
valuable working relationships between our federal law enforcement bureaus and the critically
important state, local and foreign law enforcement agencies that work with them in an investigative
capacity day-in and day-out.


Strategic Mission and Goal

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus to disrupt and dismantle criminal enterprises. The
goal of the Treasury Forfeiture Fund is to support the Department of the Treasury’s national asset
forfeiture program in a manner that results in federal law enforcement’s continued and effective use
of asset forfeiture as a high-impact law enforcement sanction to disrupt and dismantle criminal
activity. To achieve our mission and goal, the program must be administered in a fiscally responsible
manner that seeks to minimize the administrative costs incurred, thereby maximizing the benefits for
law enforcement and the society it protects.

Multi-Departmental Fund

The Treasury Forfeiture Fund continued in its capacity as a multi-Departmental Fund in FY 2011,
representing the interests of law enforcement components of the Departments of Treasury and
Homeland Security. FY 2011 posed continued management challenges including oversight of
significant general property contract expenses associated with high revenue levels. In addition,
commensurate with the successful revenue year, there were significant expenses incurred by the
bureaus to run their programs. In the midst of this period of growth and change, the Fund’s family
of law enforcement bureaus continued their hard work of federal law enforcement and the application
of asset forfeiture as a sanction to bring criminals to justice.



                                        SECTION I - OVERVIEW                                          19
FY 2011 continued a pattern of robust revenue years with regular revenue of $868.1 million from all
sources, impressive even if somewhat less than the FY 2010 banner year of $1.1 billion. As we enter
fiscal year 2012, the Fund remains focused on support for strategic investigative initiatives that will
have the greatest impact on national and international criminal enterprise including valuable training
and investigative expense funding which emphasizes high impact cases.


Performance Measure

In FY 2011, the Fund measured performance through the use of the following performance measure:
Percent of forfeited cash proceeds resulting from high-impact cases. This measures the percentage of
forfeited cash proceeds resulting from high-impact cases (those with currency seizures in excess of
$100,000). Focusing on strategic cases and investigations which result in high-impact seizures will
affect the greatest damage to criminal organizations while accomplishing the ultimate objective – to
disrupt and dismantle criminal activity.

Results

The Fund performance measure and result for FY 2011 is as follows:


                                                        FY 2010         FY 2011         FY 2011
            Performance Measure                          Actual          Target          Actual

Percent of forfeited cash proceeds resulting from        93.11%           80%             91.44%
high-impact cases

A target of 75 percent high-impact cases was set for FY 2010 and prior years since inception of the
performance measure in FY 2002. However, for FY 2011, the target was increased to 80 percent,
reflecting member bureaus’ prior success in meeting the previous target. This is a fixed target for the
Fund designed to afford our law enforcement bureaus the opportunity to undertake smaller seizure
activity that is important to the overall federal law enforcement mission. The final percentage for FY
2011 was 91.44 percent, well above target. This compares with our FY 2009 and FY 2010
performance of 87.65 percent and 93.11 percent, respectively. The performance of our member
bureaus is excellent and reflects Fund management’s longstanding emphasis on high-impact
forfeiture strategies as well as the use of Fund authorities to assist member bureaus with larger cases
that may take longer or require additional resources not otherwise available. This measure was put
into effect beginning with FY 2002.

This measure is calculated by dividing the total amount of forfeited cash proceeds from cases greater
than $100,000 by the total amount of forfeited cash proceeds for all cases.




20         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
Financial Statement Highlights

The following provides a brief explanation for each major section of the audited financial statements
accompanying this report for the fiscal year ended September 30, 2011.

These statements have been prepared to disclose the financial position of the Fund, its net costs,
changes in net position, and budgetary resources, pursuant to the requirements of the Chief Financial
Officers Act of 1990 and the Government Management Reform Act of 1994 (GMRA). While the
financial statements have been prepared from the books and records of the Fund in accordance with
the formats prescribed by the Office of Management and Budget, the statements are different from
the financial reports used to monitor and control budgetary resources that are prepared from the same
books and records and are subsequently presented in federal budget documents. Further, the notes to
the financial statements and the independent auditor’s opinion and reports on internal control over
financial reporting, and compliance with laws and regulations are also integral components to
understanding fully the financial highlights of Fund operations described in this chapter.

Statements: Changes in Net Position

Follows are brief highlights from the Statements of Changes in Net Position for FY 2011 and 2010.

Net Position – End of Year. For FY 2011, the Net Position for the Fund at the end of the year, an
indicator of the future capability to support ongoing operations of the Fund, totaled $1.453 billion
versus $986.1 million at the end of FY 2010. Both years closed with a strong and viable net position
with which to commence the next fiscal year’s operations.

Total Gross Non-Exchange Revenues. This line item on the Statements of Changes in Net Position
is the best indicator of regular “business-type” income of the account on an annual basis. For a
number of years, Fund management forecast $250.0 million for the Fund from regular seizure and
forfeiture activities of our participating bureaus. For FY 2011, the Fund closed with $868.1 million
in Gross Non-Exchange Revenues and a total of $1.1 billion for FY 2010, reflecting two very
successful, high-impact revenue years for the Treasury Forfeiture Fund.

Proceeds from Participating with other Federal Agencies. This line item on the Statements of
Changes in Net Position indicates revenue earned from the participation of Treasury Forfeiture Fund
law enforcement bureaus in the seizures leading to forfeiture of bureaus that participate in the
Department of Justice Assets Forfeiture Fund or with the forfeiture fund of the U.S. Postal Service
(Postal Service). It is noted that this category of revenue is recognized when received on deposit by
the Treasury Forfeiture Fund. Therefore, there is no accrual recorded on the Fund’s financial
statements for this category of revenue.

As of the close of FY 2011, Treasury Forfeiture Fund bureaus earned a total of $95.4 million in
revenue from participation in the seizures leading to forfeiture of the Justice and Postal Service
forfeiture funds as compared to a total of $160.7 million during FY 2010. Fund management
continues to work with the Department of Justice to identify delays and/or explain downward
adjustments to percentages associated with Reverse Asset Sharing payments owed to the Treasury
Forfeiture Fund. This revenue affords Treasury management significant funding flexibilities for our
participating agencies as the authority is broad and not confined to funding program costs; it can be
used for any law enforcement purpose of our participating bureaus. The allocation of this type of
revenue for FY 2010 and FY 2011 was restricted by the need to meet enacted budget rescissions.

                                       SECTION I - OVERVIEW                                         21
Cost of Operations. For FY 2011, the Cost of Operations totaled $177.1 million, up from $168.0
million in FY 2010.

Investment Interest Income. The Fund is authorized to invest cash balances in Treasury securities.
As of September 30, 2011, investments totaled $2.3 billion, up from $2.1 billion invested as of
September 30, 2010. Given the similar investment balance and continuing negligible interest rates on
Treasury securities during FY 2011, investment income totaled just under $1.4 million in FY 2011, as
compared to just over $1.4 million in FY 2010.

Equitable Sharing with Federal, State and Local Governments, and Foreign Countries. Each
year, the Fund pays tens of millions of dollars to state and local law enforcement agencies, and
foreign governments, for their participation in seizures that lead to forfeitures of the Treasury
Forfeiture Fund. State and local law enforcement agencies can use these resources to augment their
law enforcement budgets to fight crime in their jurisdictions. Without these funds, budgets of the
local municipalities would be taxed to provide these important resources or the need would go unmet.
During FY 2011, the Fund shared a total of $96.3 million with other federal, state and local law
enforcement agencies, and another $0.2 million with foreign countries. This compares with $325.2
million shared with other federal, state and local law enforcement agencies during FY 2010, and
another $131.7 million with foreign countries in FY 2010.

Victim Restitution. During FY 2011, the Fund paid $24.3 million in restitution to victims as
compared to $4.0 million in FY 2010.

Summary of Statements of Changes in Net Position. The Fund closed with a strong net position in
FY 2011. Management will continue to emphasize high-impact cases by participating law
enforcement bureaus. The FY 2011 performance with forfeiture revenue earnings of $868.1 million
from all sources and a high rate of high-impact cases is truly a credit to the dedicated law
enforcement personnel of our participating law enforcement bureaus.

Statements: Net Cost

Costs of the Forfeiture Program – Intra-governmental. After revenue is applied toward policy
mandates such as equitable sharing, shown in the Statements of Changes in Net Position as negative
revenue or applied non-exchange revenue, the remaining financing supports the law enforcement
activities of the Fund and pays for the storage of seized and forfeited property and sales associated
with the disposition of forfeited property.

On the Statements of Net Cost, the Net Cost of Operations totaled $177.1 million in FY 2011, up
from $168.0 million in FY 2010.

Intra-governmental. This cost category totaled $115.1 million in FY 2011, up from $105.3 million
in FY 2010. The amounts represent costs incurred by participating bureaus in running their respective
forfeiture programs.

National Seized Property Contracts. One of the largest program costs of the Fund is the storage,
maintenance and disposal of real and personal property. During FY 2011, general property was
maintained by VSE Corporation and real property was maintained by the URS Corporation, formerly
known as EG&G Technical Services, both contracts of the Department of the Treasury. In FY 2011,

22         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
expenses of these two contracts totaled $50.4 million, down from $51.2 million expensed for the two
contracts in FY 2010.

Balance Sheet

Assets, Liabilities and Net Position

Total assets of the Fund increased in FY 2011 to $2.5 billion, up from $2.3 billion in FY 2010, an
increase in asset value of over 8.6 percent. If seized currency and other monetary assets, which are
assets in the custody of the government but not yet owned by the government, are backed out of both
figures, the adjusted total assets of the Fund increased to $1.7 billion in FY 2011, up from $1.5
billion in FY 2010. During FY 2011, total liabilities of the Fund decreased to $1.1 billion, down
from $1.3 billion in FY 2010. If seized currency and other monetary assets, which are also shown as
a liability because they are not yet owned by the government, are backed out of both figures, the
adjusted total liabilities of the Fund decreases to $229.2 million in FY 2011, down from $508.0
million in FY 2010.

With increasing asset amounts and more moderately increasing costs, the Cumulative Results of
Operations, i.e., retained earnings, increased at the end of FY 2011 to a total of $1.453 billion, up
from $986.1 million at the end of FY 2010.

Financial and Program Performance - What is needed and planned. OMB Circular A-136,
Financial Reporting Requirements, requires that agencies include an explanation of what needs to be
done and what is being planned to improve financial or program performance.

Auditor’s Findings

FY 2011 Audit. The Fund’s independent auditors have given the FY 2011 financial statements an
Unqualified Opinion with no material weaknesses or other significant deficiencies in internal control
over financial reporting identified. There are two management letter findings for FY 2011.

Summary of Financial Statement Highlights

Net Position. To summarize, Fund management concluded a highly productive FY 2011 “in the
black,” with the necessary resources to commence the business of the asset forfeiture program for FY
2012. Fund management declared a Super Surplus from FY 2011 operations and will work to
recognize the hard work of our participating bureaus in the allocation of these resources.




                                       SECTION I - OVERVIEW                                       23
A Look Forward


Fund management will continue to work with our large and diverse array of federal law enforcement
bureaus as they undertake increasingly sophisticated methods and global effort to secure the financial
and commercial markets of the nation and the world given the interdependence of financial systems.
In addition, our bureaus support immigration enforcement that is designed to identify illegal
smuggling to deter its impact on the nation’s financial infrastructure and terrorism initiatives and to
ensure that human smugglers do not harm unsuspecting victims keen on seeking a new if illegal start
in the United States.      Emphasis will continue to be placed on ever-evolving state-of-the-art
investigative techniques, high-impact major case initiatives and training to support these areas of
emphasis. This has and will continue to be the key to the growing success and law enforcement reach
of the Treasury Forfeiture Fund.

Limitations of the Financial Statements. As required by OMB Circular A-136, Fund management
makes the following statements regarding the limitations of the financial statements:

    The financial statements have been prepared to report the financial position and results of
     operations of the entity, pursuant to the requirements of 31 USC § 3515(b).

    While the statements have been prepared from the books and records of the entity in accordance
     with the formats prescribed by OMB, the statements are in addition to the financial reports used
     to monitor and control budgetary resources which are prepared from the same books and records.

    The statements should be read with the realization that they are for a component of the U.S.
     government, a sovereign entity. One implication of this is that liabilities cannot be liquidated
     without legislation that provides resources to do so.




24           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
          SECTION II

INDEPENDENT AUDITOR’S REPORTS
THIS PAGE INTENTIONALLY LEFT BLANK
                   Certified Public Accountants
                   & Consultants


                                      Independent Auditor's Report on Financial Statements
www.gkacpa.com
                            Inspector General
                            United States Department of the Treasury
                            Washington, D.C.


                            We have audited the Principal Statements (balance sheets and the related
                            statements of net cost, changes in net position, and budgetary resources,
                            hereinafter referred to as “financial statements”) of the Department of the
                            Treasury Forfeiture Fund (the Fund) as of and for the years ended September
                            30, 2011 and 2010. These financial statements are the responsibility of Fund
                            Management. Our responsibility is to express an opinion on these financial
                            statements based on our audits.

                            We conducted our audits in accordance with auditing standards generally
                            accepted in the United States of America; the standards applicable to financial
                            audits contained in Government Auditing Standards, issued by the Comptroller
                            General of the United States; and applicable provisions of Office of
                            Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                            Federal Financial Statements, as amended. Those standards require that we
                            plan and perform the audits to obtain reasonable assurance about whether the
                            financial statements are free of material misstatement. An audit includes
                            examining, on a test basis, evidence supporting the amounts and disclosures in
                            the financial statements. An audit also includes assessing the accounting
                            principles used and significant estimates made by Fund Management, as well
                            as evaluating the overall financial statement presentation. We believe that our
                            audits provide a reasonable basis for our opinion.

                            In our opinion, the financial statements referred to above present fairly, in all
                            material respects, the financial position of the Fund as of September 30, 2011
                            and 2010, and its net costs, changes in net position, and budgetary resources,
                            for the years then ended, in conformity with accounting principles generally
                            accepted in the United States of America.

                            In accordance with Government Auditing Standards, we have also issued a
                            report dated October 31, 2011, on our consideration of the Fund's internal
                            control over financial reporting and a report dated October 31, 2011, on our
  1015 18th Street, NW      tests of its compliance with laws, regulations, and contracts. These reports are
        Suite 200
 Washington, DC 20036       an integral part of an audit performed in accordance with Government Auditing
   Tel: 202-857-1777
   Fax: 202-857-1778
                                                   Member of the American Institute of Certified Public Accountants
Standards, and these reports should be read in conjunction with this report in considering the results
of our audits.

Our audits were conducted for the purpose of forming an opinion on the financial statements referred
to in the first paragraph of this report as a whole. The information presented in Section I: Overview,
Section IV: Required Supplemental Information and Section V: Other Accompanying Information is
not a required part of the financial statements but is supplementary information required by
accounting principles generally accepted in the United States of America, OMB Circular A-136,
Financial Reporting Requirements, or the Treasury Forfeiture Fund Act of 1992. We applied certain
limited procedures, which consisted principally of inquiries of management regarding the methods of
measurement and presentation of the supplementary information. However, such information has not
been subjected to the auditing procedures applied in the audits of the financial statements and,
accordingly, we express no opinion on it.




October 31, 2011




26         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
                   Certified Public Accountants
                   & Consultants


                                Independent Auditor's Report on Internal Control over Financial
www.gkacpa.com                                           Reporting

                            Inspector General
                            United States Department of the Treasury
                            Washington, D.C.

                            We have audited the Principal Statements (balance sheet and the related
                            statements of net cost, changes in net position, and budgetary resources,
                            hereinafter referred to as “financial statements”) of the Department of the
                            Treasury Forfeiture Fund (the Fund) as of and for the year ended September
                            30, 2011, and have issued our report thereon dated October 31, 2011. We
                            conducted our audit in accordance with auditing standards generally accepted
                            in the United States of America; the standards applicable to financial audits
                            contained in Government Auditing Standards, issued by the Comptroller
                            General of the United States; and, applicable provisions of Office of
                            Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                            Federal Financial Statements, as amended.

                            In planning and performing our audit, we considered the Fund’s internal
                            control over financial reporting by obtaining an understanding of the design
                            effectiveness of the Fund’s internal control, determining whether these internal
                            controls had been placed in operation, assessing control risk, and performing
                            tests of controls as a basis for designing our auditing procedures for the
                            purpose of expressing our opinion on the financial statements. We limited our
                            internal control testing to those controls necessary to achieve the objectives
                            described in OMB Bulletin No. 07-04 and Government Auditing Standards.
                            We did not test all internal controls relevant to operating objectives as broadly
                            defined by the Federal Managers’ Financial Integrity Act of 1982, such as
                            those controls relevant to ensuring efficient operations. The objective of our
                            audit was not to express an opinion on the effectiveness of the Fund’s internal
                            control over financial reporting. Consequently, we do not express an opinion
                            on internal control over financial reporting.

                            Our consideration of internal control over financial reporting was for the
                            limited purpose described in the preceding paragraph and was not designed to
                            identify all deficiencies in internal control over financial reporting that might
                            be deficiencies, significant deficiencies or material weaknesses. Under
                            standards issued by the American Institute of Certified Public Accountants, a
                            deficiency in internal control exists when the design or operation of a control
  1015 18th Street, NW      does not allow management or employees, in the normal course of performing
        Suite 200
 Washington, DC 20036
   Tel: 202-857-1777
                                                   Member of the American Institute of Certified Public Accountants
   Fax: 202-857-1778
their assigned functions, to prevent, or detect and correct misstatements on a timely basis. A
significant deficiency is a deficiency or combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. A material weakness is a deficiency, or a combination of deficiencies, in internal control
such that there is a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented, or detected and corrected on a timely basis.

We did not identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses, as defined above.

We noted certain matters involving internal control over financial reporting that we reported to
Management of the Fund in a separate letter dated October 31, 2011.

This report is intended solely for the information and use of the Management of the Fund, the U.S.
Department of the Treasury, OMB, the U.S. Congress, the Department of the Treasury Office of
Inspector General and the Government Accountability Office and is not intended to be, and should
not be used by anyone other than these specified parties. However, this report is a matter of public
record and its distribution is not limited.




October 31, 2011




28         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
                 Certified Public Accountants
                 & Consultants



www.gkacpa.com
                          Independent Auditor's Report on Compliance with Laws and Regulations

                          Inspector General
                          United States Department of the Treasury
                          Washington, D.C.

                          We have audited the Principal Statements (balance sheet and the related
                          statements of net cost, changes in net position, and budgetary resources,
                          hereinafter referred to as “financial statements”) of the Department of the
                          Treasury Forfeiture Fund (the Fund) as of and for the year ended September
                          30, 2011, and have issued our report thereon dated October 31, 2011. We
                          conducted our audit in accordance with auditing standards generally accepted
                          in the United States of America; the standards applicable to financial audits
                          contained in Government Auditing Standards, issued by the Comptroller
                          General of the United States; and, applicable provisions of Office of
                          Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                          Federal Financial Statements, as amended.

                          The management of the Fund is responsible for complying with laws,
                          regulations, and contracts applicable to the Fund. As part of obtaining
                          reasonable assurance about whether the Fund’s financial statements are free of
                          material misstatement, we performed tests of its compliance with certain
                          provisions of laws, regulations, and contracts, noncompliance with which
                          could have a direct and material effect on the determination of financial
                          statement amounts, and certain other laws and regulations specified in OMB
                          Bulletin No. 07-04, including the requirements referred to in Section 803(a) of
                          the Federal Financial Management Improvement Act (FFMIA) of 1996. We
                          limited our tests of compliance to these provisions and we did not test
                          compliance with all laws, regulations, and contracts applicable to the Fund.
                          Providing an opinion on compliance with certain provisions of laws,
                          regulations, and contracts was not an objective of our audit and, accordingly,
                          we do not express such an opinion.

                          The results of our tests of compliance disclosed no instances of noncompliance
                          with laws, regulations, and contracts discussed in the preceding paragraph,
                          exclusive of FFMIA, that are required to be reported under Government
                          Auditing Standards and OMB Bulletin No. 07-04.
  1015 18th Street, NW
        Suite 200
 Washington, DC 20036
   Tel: 202-857-1777                             Member of the American Institute of Certified Public Accountants
   Fax: 202-857-1778
Under FFMIA, we are required to report whether the Fund’s financial management systems
substantially comply with the Federal financial management systems requirements, applicable
Federal accounting standards, and the United States Government Standard General Ledger at the
transaction level. To meet this requirement, we performed tests of compliance with FFMIA section
803(a) requirements.

The results of our tests of FFMIA disclosed no instances in which the Fund’s financial management
systems did not substantially comply with the three requirements discussed in the preceding
paragraph.

This report is intended solely for the information and use of the Management of the Fund, the U.S.
Department of the Treasury, OMB, the U.S. Congress, the Department of the Treasury Office of
Inspector General, and the Government Accountability Office and is not intended to be, and should
not be used by anyone other than these specified parties. However, this report is a matter of public
record and its distribution is not limited.




October 31, 2011




30         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
          SECTION III

FINANCIAL STATEMENTS AND NOTES
                          Department of the Treasury Forfeiture Fund
                                     BALANCE SHEETS
                              As of September 30, 2011 and 2010
                                     (Dollars in thousands)

                                                                                       2011                2010
Assets:

Intragovernmental:
       Fund balance with Treasury                                            $       23,094        $      33,490
       Investments and related interest receivable (Note 3)                      2,309,275           2,095,911
       Advances                                                                               79                266
   Total Intragovernmental                                                       2,332,448           2,129,667

       Cash and other monetary assets (Note 5)                                       119,766             90,212 

       Accounts Receivable                                                                   430                561
                                                                                     120,196              90,773
      Forfeited property (Note 6)
         Held for sale, net of mortgages, liens and claims                             52,227             61,449
         To be shared with federal, state or local, or foreign governments               1,517              1,585
      Total forfeited property, net of mortgages, liens and claims                     53,744             63,034
Total Assets                                                                   $2,506,388          $2,283,474 

Liabilities:

  Intragovernmental:
      Accounts payable                                                       $        56,253         $    58,577
 Total Intragovernmental                                                              56,253               58,577

      Seized currency and other monetary instruments (Note 8)                       824,219              789,437
      Distributions payable (Note 9)
          State and local agencies and foreign governments                          111,311              375,813
      Accounts payable                                                                   7,939             10,542
      Deferred revenue from forfeited assets                                          53,744               63,034

Total Liabilities                                                                 1,053,466           1,297,403

Net Position:
  Cumulative results of operations (Note 10)                                      1,452,922              986,071

Total Liabilities and Net Position                                           $2,506,388  $2,283,474 
                The accompanying notes are an integral part of these financial statements.

                         SECTION III - FINANCIAL STATEMENTS AND NOTES                                          31
                           Department of the Treasury Forfeiture Fund
                                  STATEMENTS OF NET COST
                         For the years ended September 30, 2011 and 2010
                                        (Dollars in thousands)

                                                                                    2011               2010
Program:                                                                                            
ENFORCEMENT
                                                                                                    
  Intragovernmental:
       Seizure investigative costs and asset management                      $      73,300      $     65,761
       Other asset related contract services                                           8,565             9,178
       Data systems, training and others                                             33,253            30,334

  Total Intragovernmental                                                         115,118           105,273

  With the Public:
     National contract services seized property and other                           50,359             51,207
     Joint operations                                                               11,593             11,549

  Total with the Public                                                             61,952            62,756


Net Cost of Operations                                                    $      177,070       $   168,029
                                                                                                    




              The accompanying notes are an integral part of these financial statements.


   32         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
                           Department of the Treasury Forfeiture Fund
                      STATEMENTS OF CHANGES IN NET POSITION
                       For the years ended September 30, 2011 and 2010
                                      (Dollars in thousands)

                                                                                    2011         2010
                                                                                                
Net Position – Beginning of year                                             $ 986,071       $ 594,513
Financing Sources (Non-Exchange Revenues):
   Intragovernmental
        Investment interest income                                                  1,379        1,431
   Public
        Forfeited currency and monetary instruments                            763,378         914,227
        Sales of forfeited property net of mortgages and claims                  53,776         45,540
        Proceeds from participating with other federal agencies                  95,377        160,717
        Value of property transferred in equitable sharing                        4,675          4,019
        Payments in lieu of forfeiture, net of refund (Note 18)                (57,026)       (29,949)
        Reimbursed costs                                                          3,559          3,115
        Other                                                                ____2,958           3,245
   Total Gross Non-Exchange Revenues                                            868,076      1,102,345

Less: Equitable Sharing
  Intragovernmental
      Federal                                                                     (27,927)     (2,327)
  Public
      State and local agencies                                                 (68,373)      (322,887)
      Foreign countries                                                           (176)      (131,730)
      Victim restitution                                                       (24,261)        (4,019)
                                                                               (92,810)      (458,636)
   Total Equitable Sharing                                                    (120,737)      (460,963)

Total Non-Exchange Revenues, Net                                                  747,339      641,382

Transfers –Out
  Intragovernmental
  Super surplus (Note 12)                                                     (102,464)       (78,895)
   Secretary’s enforcement fund (Note 13)                                         (954)        (2,900)
Total Transfers Out                                                           (103,418)       (81,795)

Total Financing Sources - Net                                                   643,921        559,587
Net Cost of Operations                                                        (177,070)      (168,029)

Net Results of Operations                                                         466,851      391,558

Net Position – End of Year                                                 $ 1,452,922       $ 986,071

               The accompanying notes are an integral part of these financial statements.
                         SECTION III - FINANCIAL STATEMENTS AND NOTES                               33
                          Department of the Treasury Forfeiture Fund
                        STATEMENTS OF BUDGETARY RESOURCES
                        For the years ended September 30, 2011 and 2010
                                       (Dollars in thousands)


                                                                                    2011               2010
                                                                                                    
Budgetary Resources:
                                                                                                      
   Unobligated balances- beginning of year                                  $      580,785  $    299,970
   Recoveries of prior year unpaid obligations                                        57,464           49,620
   Budget authority                                                                 598,570    1,083,273

Total Budgetary Resources                                                   $   1,236,819    $ 1,432,863 

Status of Budgetary Resources:

   Obligations incurred                                                     $      590,414  $   852,078
   Unobligated balances - available                                                 646,405          580,785

Total Status of Budgetary Resources                                         $  1,236,819      $ 1,432,863


Change in Obligated Balance:
   Obligated balance, net-beginning of year                                  $     745,715     $   406,020
   Obligations incurred                                                            590,414          852,078 
   Less: Gross outlays                                                           (739,602)        (462,763)
   Less: Recoveries of prior year unpaid obligations, actual                       (57,464)         (49,620)

Obligated balance, net – end of year                                         $    539,063      $   745,715

Net Outlays                                                                  $    739,602      $   462,763




              The accompanying notes are an integral part of these financial statements.



   34           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
Note 1: Reporting Entity

The Department of the Treasury Forfeiture Fund (Treasury Forfeiture Fund or the Fund) was
established by the Treasury Forfeiture Fund Act of 1992, Public Law 102-393 (the TFF Act), and is
codified at 31 USC 9703. The Fund was created to consolidate all Treasury law enforcement bureaus
under a single forfeiture fund program administered by the Department of the Treasury (Treasury).
Treasury law enforcement bureaus fully participating in the Fund upon enactment of this legislation
were the U.S. Customs Service (Customs); the Internal Revenue Service (IRS); the United States
Secret Service (Secret Service); the Bureau of Alcohol, Tobacco and Firearms (ATF); the Financial
Crimes Enforcement Network (FinCEN); and the Federal Law Enforcement Training Center
(FLETC). FinCEN and FLETC contribute no revenue to the Fund, however in recent years,
significant amounts of Super Surplus funds have been allocated to FinCEN towards Bank Secrecy
Act (BSA) Information Technology (IT) modernization, a tool used in the fight against money
laundering and other criminal activity. The U.S. Coast Guard, formerly part of the Department of
Transportation, now part of the Department of Homeland Security (DHS), also participates in the
Fund. However, all Coast Guard seizures are treated as Customs seizures because the Coast Guard
lacks seizure authority.

With enactment of the Homeland Security Act of 2002 (Homeland Security Act), law enforcement
bureaus currently participating in the Fund are: the Internal Revenue Service - Criminal Investigation
(IRS - CI) of Treasury, Customs and Border Protection (CBP), Immigration and Customs
Enforcement (ICE) and the U.S. Secret Service (USSS) of DHS. The U.S. Coast Guard of DHS joins
these bureaus. The Fund continues in its capacity as a multi-Departmental Fund, representing the
interests of law enforcement components of the Departments of Treasury and Homeland Security.

The Fund is a special fund that is accounted for under Treasury symbol number 20X5697. From this
no-year account, expenses may be incurred consistent with 31 USC 9703, as amended. A portion of
these expenses, referred to as discretionary expenses, are subject to annual appropriation limitations.
Others, referred to as non-discretionary (mandatory) expenses, are limited only by the availability of
resources in the Fund. Both expense categories are limited in total by the amount of revenue in the
Fund. The Fund is managed by the Treasury's Executive Office for Asset Forfeiture (EOAF).

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus to disrupt and dismantle criminal enterprises. The
goal of the Treasury Forfeiture Fund is to support the Treasury’s national asset forfeiture program in
a manner that results in federal law enforcement’s continued and effective use of asset forfeiture as a
high-impact law enforcement sanction to disrupt and dismantle criminal activity. Under a
Memorandum of Understanding (MOU) with Treasury, CBP acts as the executive agent for certain
operations of the Fund. Pursuant to that executive agency role, CBP’s National Finance Center (NFC)
is responsible for accounting and financial reporting for the Fund, including timely and accurate
reporting and compliance with Treasury, the Comptroller General and the Office of Management and
Budget (OMB) regulations and reporting requirements.




                         SECTION III - FINANCIAL STATEMENTS AND NOTES                               35
Note 2: Summary of Significant Accounting Policies

Basis of Accounting and Presentation

The Fund began preparing audited financial statements in Fiscal Year 1993 as required by the Fund’s
enabling legislation 31 USC§9703(f)(2)(H), and the Chief Financial Officers Act of 1990. Beginning
with the Fiscal Year 1996 report, the Government Management Reform Act of 1994 (GMRA)
requires executive agencies, including the Treasury, to produce audited consolidated accountability
reports and related footnotes for all activities and funds.

The financial statements have been prepared from the accounting records of the Fund in conformity
with accounting principles generally accepted in the United States of America (GAAP) and specified
by OMB in OMB Circular A-136, Financial Reporting Requirements (OMB Circular A-136). GAAP
for federal entities is prescribed by the Federal Accounting Standards Advisory Board (FASAB),
which is designated the official accounting standards setting body of the Federal Government by the
American Institute of Certified Public Accountants.

Allowable Fund Expenses

The majority of the revenue recorded by the Fund is utilized for operating expenses or distributed to
state and local law enforcement agencies, other federal agencies, and foreign governments, in
accordance with the various laws and policies governing the operations and activities of the Fund.
Under the TFF Act, the Fund is authorized to pay certain expenses using discretionary or mandatory
funding authorities of the Fund.

Discretionary authorities include but may not be limited to: the payment of expenses for the purchase
of awards for information or assistance leading to a civil or criminal forfeiture involving any law
enforcement bureau participating in the Fund; purchase of evidence or information that meet the
criteria set out in 31 USC 9703(a)(2)(B); payment for equipment for vessels, vehicles, or aircraft
available for official use as described by 31 USC 9703(a)(2)(D) and (F); reimbursement of private
persons for expenses incurred while cooperating with a Treasury law enforcement organization in
investigations; publication of the availability of certain awards; and payment for training foreign law
enforcement personnel with respect to seizure or forfeiture activities of the Fund. Discretionary
expenses are subject to an annual, definite Congressional appropriation from revenue in the Fund.

Expenses from the mandatory authorities of the Fund include but are not limited to: all proper
expenses of the seizure, including investigative costs and purchases of evidence and information
leading to seizure, holding cost, security costs, etc., awards of compensation to informers under
section 619 of the Tariff Act (19 USC 1619); satisfaction of liens against the forfeited property, and
claims of parties with interest in forfeited property; expenses incurred by state and local law
enforcement agencies in joint law enforcement operations with law enforcement agencies
participating in the Fund; and equitable sharing payments made to state and local law enforcement
agencies in recognition of their efforts in a Fund seizure leading to forfeiture. These mandatory
expenses are paid pursuant to the permanent indefinite authorities of the Fund; are only limited by
revenue in the Fund each year and do not require additional Congressional action for expenditure.



   36          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
The Fund's expenses are either paid on a reimbursement basis or paid directly on behalf of a
participating bureau. Reimbursable expenses are incurred by the respective bureaus participating in
the Fund against their appropriation and then submitted to the Fund for reimbursement. The bureaus
are reimbursed through Inter-Agency Transfers (SF-1081) or Intra-governmental Payments and
Collection (IPAC) System. Certain expenses such as equitable sharing, liens, claims and state and
local joint operations costs are paid directly from the Fund.

Further, the Fund is a component unit of the Treasury with participating bureaus in the DHS. As
such, employees of both Departments may perform certain operational and administrative tasks
related to the Fund. Payroll costs of employees directly involved in the security and maintenance of
forfeited property are also recorded as expenses in the financial statements of the Fund (included in
the line item “seizure investigative costs and asset management” in the statement of net cost.)

Revenue and Expense Recognition

Revenue from the forfeiture of property is deferred until the property is sold or transferred to a state,
local or federal agency. Revenue is not recorded if the forfeited property is ultimately destroyed or
cannot be legally sold.

Revenue from currency is recognized upon forfeiture. Payments in lieu of forfeiture (mitigated
seizures) are recognized as revenue when the payment is received. Revenue received from
participating with certain other federal agencies is recognized when the payment is received.
Operating costs are recorded as expenses and related liabilities when goods are received or services
are performed. Certain probable equitable sharing liabilities existing at year end are accrued based
on estimates.

As provided for in the TFF Act, the Fund invests seized and forfeited currency that is not needed for
current operations. Treasury’s Bureau of Public Debt invests the funds in obligations of, or
guaranteed by, the United States Government. Interest is reported to the Fund and recorded monthly
as revenue in the general ledger.

Earmarked Funds

Earmarked funds are financed by specifically identified revenues, often supplemented by other
financing sources, which remain available over time. These specifically identified revenues and other
financing sources are required by statute to be used for designated activities, benefits, or purposes,
and must be accounted for separately from the Government’s general revenues. In accordance with
SFFAS 27, Earmarked Funds, all of the TFF’s revenue meets these criteria and constitutes an
earmarked fund.

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with earmarked funds. The cash collected from earmarked funds are deposited in the U.S.
Treasury, which uses the cash for general government purposes. Treasury securities are issued to the
TFF as evidence of its receipts. Treasury securities are an asset to the TFF and a liability to the U.S.
Treasury. Because the TFF and U.S. Treasury are both parts of the government, these assets and
liabilities offset each other from the standpoint of the government as a whole. For this reason, they
do not represent an asset or a liability in the U.S. Government-wide financial statements.


                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                37
Treasury securities provide the TFF with authority to draw upon the U.S. Treasury to make future
benefit payments or other expenditures. When the TFF requires redemption of these securities to
make expenditures, the government finances those expenditures out of accumulated cash balances, by
raising taxes or other receipts, by borrowing from the public or repaying less debt or by curtailing
other expenditures. This is the same way that the government finances all other expenditures.

Equitable Sharing (Assets Distributed)

Forfeited property, currency, or proceeds from the sales of forfeited property may be shared with
federal, state and local law enforcement agencies or foreign governments, which provided direct or
indirect assistance in the related seizure. In addition, the Fund may transfer forfeited property to
other federal agencies, which would benefit from the use of the item. A class of asset distribution
was established for victim restitution in 1995. These distributions include property and cash returned
to victims of fraud and other illegal activity. Upon approval by Fund management to share or
transfer the assets, both revenue from distributed forfeited assets and distributions are recognized for
the net realizable value of the asset to be shared or transferred, thereby resulting in no gain or loss
recognized. Revenue and /or expenses are recognized for property and currency, which are
distributed to or shared with non-federal agencies, per SFFAS No. 7, Accounting for Revenue and
Other Financing Sources.

Entity Assets

Entity assets are used to conduct the operations and activities of the Fund. Entity assets comprise
intragovernmental and non-intragovernmental assets. Intragovernmental balances arise from
transactions among federal agencies. These assets are claims of a federal entity against another
federal entity. Entity assets consist of cash or other assets, which could be converted into cash to
meet the Fund's current or future operational needs. Such other assets include investments of forfeited
balances, accrued interest on seized balances, receivables, and forfeited property, which are held for
sale or to be distributed.

   Fund Balance with Treasury – This represents amounts on deposit with Treasury.

   Investments and Related Interest Receivable – This includes forfeited cash held by the Fund
    and seized currency held in the Customs Suspense Account that had been invested in short term
    U.S. Government Securities.

   Receivables – The values reported for other receivables are primarily funds due from the national
    seized property contractor for properties sold; the proceeds of which have not yet been deposited
    into the Fund. No allowance has been made for uncollectible amounts as the accounts recorded as
    a receivable at year end were considered to be fully collectible as of September 30, 2011 and
    2010.

   Advances – This primarily represents cash transfers to Treasury or law enforcement bureaus
    participating in the Fund for orders to be delivered.

   Cash and Other Monetary Assets – This includes forfeited currency on hand not yet deposited
    and forfeited currency held as evidence.

    38          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
   Forfeited Property and Currency – Forfeited property and currency is recorded in the
    respective seized property and forfeited asset tracking systems at the estimated fair value at the
    time of seizure. However, based on historical sales experiences for the year, properties are
    adjusted to reflect the market value at the end of the fiscal year for financial statement reporting
    purposes. Direct and indirect holding costs are not capitalized for individual forfeited assets.
    Forfeited currency not deposited into the Fund is included as part of Entity Assets - Cash and
    Other Monetary Assets.

Further, mortgages and claims on forfeited assets are recognized as a valuation allowance and a
reduction of deferred revenue from forfeited assets when the asset is forfeited. The allowance
includes mortgages and claims on forfeited property held for sale and a minimal amount of claims on
forfeited property previously sold. Mortgages and claims expenses are recognized when the related
asset is sold and is reflected as a reduction of sales of forfeited property.

Additionally, SFFAS No. 3, Accounting for Inventory and Related Property, requires certain
additional disclosures in the notes to the financial statements, including an analysis of changes in
seized and forfeited property and currency, for both carrying value and quantities, from that on hand
at the beginning of the year to that on hand at the end of the year. These analyses are disclosed in
Notes 7 and 8.

Non-entity Assets

Non-entity assets held by the Fund are not available for use by the Fund. Non-entity assets comprise
intragovernmental and other assets. Intragovernmental balances arise from transactions among
federal agencies. These assets are claims of a federal entity against another federal entity. Non-
entity assets are not considered as financing sources (revenue) available to offset operating expenses,
therefore, a corresponding liability is recorded and presented as governmental liabilities in the
balance sheet to reflect the custodial/fiduciary nature of these activities.

   Seized Currency and Property – Seized Currency is defined as cash or monetary instruments
    that are readily convertible to cash on a dollar for dollar basis. SFFAS No. 3 requires that seized
    monetary instruments (cash and cash equivalents) be recognized as an asset in the financial
    statements and a liability be established in an amount equal to the seized asset value due to: (i) the
    fungible nature of monetary instruments, (ii) the high level of control that is necessary over these
    assets; and (iii) the possibility that these monies may be returned to their owner in lieu of
    forfeiture.

    Seized property is recorded at its appraised value at the time of seizure. The value is determined
    by the seizing entity and is usually based on a market analysis such as a third party appraisal,
    standard property value publications or bank statements. Seized property is not recognized as an
    asset in the financial statements, as transfer of ownership to the government has not occurred as
    of September 30. Accordingly, seized property other than monetary instruments is disclosed in
    the footnotes in accordance with SFFAS No. 3.

   Investments and Related Interest Receivable – This balance includes seized cash on deposit in
    the Fund’s suspense account held by Treasury, which has been invested in short term U.S.
    Government Securities.

                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                 39
   Cash and Other Monetary Assets – This balance represents the aggregate amount of the Fund’s
    seized currency on deposit in the Fund’s suspense account held by Treasury, seized cash on
    deposit held with other financial institutions and, cash on hand in vaults held at field office
    locations.

Liabilities Covered by Budgetary Resources

Liabilities covered by budgetary resources represent liabilities incurred, which are covered by
available budgetary resources. The components of such liabilities for the Fund are as follows:

   Distributions Payable – Distributions payable to federal and non-federal agencies is primarily
    related to equitable sharing payments and payments to be made by the Fund to the victims of
    fraud.

   Accounts Payable – Amounts reported in this category include accrued expenses authorized by
    the TFF Act (See "Allowable Fund Expenses") for which payment was pending at year end.

   Seized Currency – Amounts reported in this category represent the value of seized currency that
    is held by the Fund which equals the amount of seized currency reported as an asset.

   Deferred Revenue from Forfeited Assets – At year end, the Fund held forfeited assets, which
    had not yet been converted into cash through a sale. The amount reported here represents the
    value of these assets, net of mortgages and claims.

Liabilities Not Covered by Budgetary Resources

The Fund does not currently have liabilities not covered by available budgetary resources.

Net Position

The components of net position are classified as follows:
 Retained Capital – There is no cap on amounts that the Fund can carry forward into Fiscal Year
   2011. The cap was removed by the Fiscal Year 1997 Omnibus Appropriations Act (PL 104-208).

   Unliquidated Obligations – This category represents the amount of undelivered purchase orders,
    contracts and equitable sharing requests which have been obligated with current budget resources
    or delivered purchase orders and contracts that have not been invoiced. An expense and liability
    are recognized and the corresponding obligations are reduced as goods are received or services
    are performed. A portion of the equitable sharing requests that were in final stages of approval
    are recognized as liabilities at year end. Prior experience with the nature of this account indicated
    that a substantial portion of these requests were certain liabilities at year end. (See also
    Distributions Payable at Note 9).

   Net Results of Operations – This category represents the net difference, for the activity during
    the year, between: (i) financing sources including transfers, and revenues; and (ii) expenses.



    40          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
Note 3: Investments and Related Interest Receivable

All investments are intragovernmental short-term (35 days or less) non-marketable par value federal
debt securities issued by, and purchased through Treasury's Bureau of the Public Debt. Investments
are always purchased at a discount and are reported at acquisition cost, net of discount. The discount
is amortized into interest income over the term of the investment. The investments are always held to
maturity. They are made from cash in the Fund and from seized currency held in the Customs
Suspense Account. The Customs Suspense Account became the depository for seized cash for the
Fund following enactment of the TFF Act.

The following schedule presents the investments on hand as of September 30, 2011 and 2010,
respectively (dollars in thousands):

Entity Assets

Description.                                                 Cost     Unamortized        Investment,
                                                                         Discount               Net
September 30, 2011

Treasury Forfeiture Fund -

28 days 0.0000% U.S. Treasury Bills                    $1,584,974               ($0)      $1,584,974

Interest Receivable                                                                                 0

Total Investment, Net, and Interest Receivable                                            $1,584,974

Fair Market Value                                                                         $1,584,959

September 30, 2010

Treasury Forfeiture Fund -

28 days 0.1150% U.S. Treasury Bills                    $1,383,134            ($124)       $1,383,010

Interest Receivable                                                                                47

Total Investment, Net, and Interest Receivable                                            $1,383,057

Fair Market Value                                                                         $1,383,026




                         SECTION III - FINANCIAL STATEMENTS AND NOTES                              41
Non-entity Assets

Description.                                         Cost      Unamortized         Investment,
                                                                  Discount                Net
September 30, 2011

Treasury Forfeiture Fund –
Seized Currency Suspense Account


28 days 0.0000% U.S. Treasury Bills               $724,301                 $0           $724,301

Fair Market Value                                                                       $724,294

September 30, 2010

Treasury Forfeiture Fund –
Seized Currency Suspense Account


28 days 0.1150% U.S. Treasury Bills               $712,918               ($64)          $712,854

Fair Market Value                                                                       $712,862




Note 4: Analysis of Non-Entity Assets

The following schedule presents the non-entity assets as of September 30, 2011 and 2010,
respectively, (dollars in thousands):

                                                             2011                2010
    Seized currency:
        Intragovernmental Investments (Note 3)          $     724,301        $    712,854
        Cash and other monetary assets (Note 5)                99,918              76,583
    Total Non-Entity Assets                                   824,219             789,437
    Total Entity Assets                                      1,682,169           1,494,037
    Total Assets                                       $     2,506,388      $    2,283,474




   42          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
Note 5: Cash and Other Monetary Assets

Entity Assets

Cash and Other Monetary Assets held on hand included forfeited currency not yet deposited, as well
as forfeited currency held as evidence, amounting to $19.8 million and $13.6 million as of September
30, 2011 and 2010, respectively.

Non-Entity Assets
Cash and Other Monetary Assets included seized currency not yet deposited, as well as deposited
seized currency which is not invested in order to pay remissions, amounted to $99.9 million and
$76.6 million as of September 30, 2011 and 2010, respectively.

Note 6: Forfeited Property

The following summarizes the components of forfeited property (net), as of September 30, 2011 and
2010, respectively, (dollars in thousands):

                                                                        2011               2010
 Held for Sale                                                      $    59,497        $     64,951
 To be shared with federal, state or local, or foreign government         1,517               1,585
   Total forfeited property (Note 7)                                     61,014              66,536
 Less: Allowance for mortgages and claims                                (7,270)             (3,502)
 Total forfeited property, net                                      $    53,744        $    63,034




                          SECTION III - FINANCIAL STATEMENTS AND NOTES                            43
Note 7: FY 2011 Analysis of Changes in Forfeited Property and Currency

The following schedule presents the changes in the forfeited property and currency balances from October 1, 2010 to September 30, 2011.
(Dollar value is in thousands.)

                   10/1/10 Financial                                10/1/10
                   Statement Balance         Adjustments         Carrying Value          Forfeitures            Deposits/Sales         Disposals/Transfers
                      Value     No.         Value     No.          Value    No.          Value   No.              Value     No.            Value     No.

Currency           $12,559            -        $-           -    $12,559          -   $731,485           -   $(749,316)            -      $(243)           -
Other Monetary
Instruments          1,070            -         -           -      1,070          -         95           -        (164)            -           -           -
Subtotal            13,629            -         -           -     13,629          -    731,580           -    (749,480)            -       (243)           -

Real Property       48,953       223       24,090           -     73,043     223        37,517         133     (35,442)     (120)        (5,946)      (14)

General Property    10,661     9,336        9,234           -     19,895    9,336       57,195   26,273        (30,969)    (3,128)       (3,900)   (2,004)
Vessels                558        53          520           -      1,078       53        3,125      179         (2,048)       (75)       (1,014)      (19)
Aircraft               149         3          164           -        313        3          877       11           (727)        (8)             -         -
Vehicles             6,215     2,199        5,005           -     11,220    2,199       42,399   10,247        (33,308)    (8,804)       (9,614)   (1,244)
Subtotal            66,536    11,814       39,013           -    105,549   11,814      141,113   36,843       (102,494)   (12,135)      (20,474)   (3,281)
Grand Total        $80,165    11,814      $39,013           -   $119,178   11,814     $872,693   36,843      $(851,974)   (12,135)     $(20,717)   (3,281)

                                                                     Other                                                             Fair Market Value       9/30/11 Financial
                   Victim Restitution         Destroyed           Adjustments           Value Change         2011 Carrying Value          Adjustment           Statement Balance
                     Value     No.         Value          No.      Value     No.        Value          No.       Value           No.      Value       No.         Value        No.
Currency                $-            -       $-            -    $25,118       -         $26             -     $19,629             -         $-         -       $19,629          -
Other Monetary
Instruments               -                                 -
                                      -                             (12)          -      (770)           -         219             -           -           -         219           -
Subtotal                  -           -         -           -     25,106          -      (744)           -      19,848             -           -           -      19,848           -

Real Property             -           -         -           -      8,252        29        285            -      77,709           251    (36,742)           -      40,967       251

General Property          -           -     (195)   (18,747)       5,038     628       (2,936)           -      44,128     12,358       (32,021)           -     12,107     12,358
Vessels                   -           -         -      (103)        (36)      11         (123)           -         982         46          (453)           -        529         46
Aircraft                  -           -         -        (1)         100       1             -           -         563          6          (228)           -        335          6
Vehicles                  -           -         -       (70)       1,591     308         (231)           -      12,057      2,636        (4,981)           -      7,076      2,636
Subtotal                  -           -     (195)   (18,921)      14,945     977       (3,005)           -     135,439     15,297       (74,425)           -     61,014     15,297
Grand Total              $-           -    $(195)   (18,921)     $40,051     977      $(3,749)           -    $155,287     15,297      $(74,425)           -    $80,862     15,297


                                  44           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
Note 7 (Cont’d): FY 2010 Analysis of Changes in Forfeited Property and Currency

The following schedule presents the changes in the forfeited property and currency balances from October 1, 2009 to September 30, 2010.
(Dollar value is in thousands.)

                 10/1/09 Financial                                   10/1/09
                 Statement Balance         Adjustments            Carrying Value           Forfeitures             Deposits/Sales         Disposals/Transfers
                   Value      No.         Value     No.             Value     No.          Value   No.                Value     No.           Value     No.

Currency         $18,188            -        $-           -       $18,188           -   $899,821           -    $(919,499)            -          $-           -
Other Monetary
Instruments          309            -         -           -           309           -        852           -             -            -        (50)           -
Subtotal          18,497            -         -           -        18,497           -    900,673           -     (919,499)            -        (50)           -

Real Property     47,534       196       22,016           -        69,550      196        36,686         122       (43,647)     (114)       (7,429)      (24)
General
Property           4,958     9,391       18,100           -        23,058     9,391       15,919   20,193           (7,382)    (2,827)      (1,273)   (1,248)
Vessels              745        62          505           -         1,250        62        2,416      132           (1,775)       (79)        (715)       (9)
Aircraft             113         6          389           -           502         6          246       10             (295)        (7)            -         -
Vehicles           6,128     3,284        9,223           -        15,351     3,284       42,005   12,098          (38,641)   (12,034)      (9,099)   (1,173)
Subtotal          59,478    12,939       50,233           -       109,711    12,939       97,272   32,555          (91,740)   (15,061)     (18,516)   (2,454)
Grand Total      $77,975    12,939      $50,233           -      $128,208    12,939     $997,945   32,555      $(1,011,239)   (15,061)    $(18,566)   (2,454)

                                                                       Other                                                              Fair Market Value       9/30/10 Financial
                 Victim Restitution         Destroyed               Adjustments           Value Change          2010 Carrying Value          Adjustment           Statement Balance
                   Value     No.         Value          No.         Value      No.        Value          No.         Value          No.      Value       No.         Value        No.
Currency              $-            -       $-            -       $14,052        -         $(3)            -       $12,559            -         $-         -       $12,559          -
Other Monetary
Instruments             -                                 -
                                    -                                (41)           -          -           -         1,070            -           -           -       1,070            -
Subtotal                -           -         -           -        14,011           -        (3)           -        13,629            -           -           -      13,629            -

Real Property           -           -         -           -        17,962         43        (79)           -        73,043          223    (24,090)           -      48,953       223
General
Property                -           -     (168)   (16,486)         (2,120)     313       (8,139)           -        19,895      9,336       (9,234)           -     10,661      9,336
Vessels                 -           -         -       (55)              77        2        (175)           -         1,078         53         (520)           -        558         53
Aircraft                -           -         -        (3)           (129)      (3)         (11)           -           313          3         (164)           -        149          3
Vehicles                -           -         -      (185)           1,810     209         (206)           -        11,220      2,199       (5,005)           -      6,215      2,199
Subtotal                -           -     (168)   (16,729)         17,600      564       (8,610)           -       105,549     11,814      (39,013)           -     66,536     11,814
Grand Total            $-           -    $(168)   (16,729)        $31,611      564      $(8,613)           -      $119,178     11,814     $(39,013)           -    $80,165     11,814




                                                              SECTION III - FINANCIAL STATEMENTS AND NOTES                                                                            45
Note 8: FY 2011 Analysis of Changes in Seized Property and Currency

Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or
administratively forfeited. Because of the fungible nature of currency and the high level of control necessary over these assets and the possibility that
these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon seizure. Seized property other
than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)

                  9/30/10 Financial                                                                                                                          9/30/11 Financial
                  Statement Balance            Seizures             Remissions               Forfeitures              Adjustments         Value Changes      Statement Balance
                     Value       No.          Value       No.       Value        No.        Value           No.       Value         No.      Value    No.       Value      No.
Currency          $776,100         -       $881,144         -   $(108,526)         -    $(731,485)            -    $(13,380)          -      $ 574      -    $804,427        -

Other Monetary                                              -
Instruments         13,337            -       8,699                    (3)          -         (95)             -     (2,145)          -         (1)     -      19,792            -
Subtotal           789,437            -     889,843         -    (108,529)          -    (731,580)             -    (15,525)          -        573      -     824,219            -

Real Property      210,589       505         63,124       224     (10,897)       (58)     (37,517)         (133)     (4,538)         8     (14,700)     -     206,061      546

General                                                                                                                                                 -
Property           276,883    22,377         87,196    37,101     (58,075)   (4,129)      (57,195)   (26,273)        (8,300)   (4,668)     (15,001)           225,508    24,408
Vessels               6,772      167           3,271      206      (1,665)      (37)       (3,125)      (179)          (261)      (19)          157     -        5,149      138
Aircraft             16,754       29           3,695       23     (13,262)      (10)         (877)       (11)          (103)       (2)         (86)     -        6,121       29
Vehicles             46,525    5,758          92,004   14,973     (42,263)   (4,338)      (42,399)   (10,247)        (2,040)     (367)        (792)     -       51,035    5,779
Subtotal            557,523   28,836         249,290   52,527    (126,162)   (8,572)     (141,113)   (36,843)       (15,242)   (5,048)     (30,422)     -      493,874   30,900
Grand Total      $1,346,960   28,836      $1,139,133   52,527   $(234,691)   (8,572)    $(872,693)   (36,843)      $(30,767)   (5,048)    $(29,849)     -   $1,318,093   30,900




                                 46            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
Note 8 (Cont’d): FY 2010 Analysis of Changes in Seized Property and Currency

Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or
administratively forfeited. Because of the fungible nature of currency and the high level of control necessary over these assets and the possibility that
these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon seizure. Seized property other
than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)

                 9/30/09 Financial                                                                                                                            9/30/10 Financial
                 Statement Balance            Seizures             Remissions               Forfeitures              Adjustments         Value Changes        Statement Balance
                    Value       No.          Value       No.       Value        No.        Value           No.       Value       No.        Value    No.         Value      No.
Currency         $585,258         -       $935,136         -    $(61,691)         -    $(899,821)            -    $219,892         -     $ (2,674)     -      $776,100        -

Other                                                      -
Monetary           13,829            -       2,829                (2,000)          -        (852)             -        751          -      (1,220)       -      13,337            -
Instruments
Subtotal          599,087            -     937,965         -     (63,691)          -    (900,673)             -    220,643          -      (3,894)       -     789,437            -

Real Property     255,834       580         47,552       151     (11,355)       (70)     (36,686)         (122)   (19,967)       (34)     (24,789)       -     210,589      505

General                                                                                                                                                  -
Property          313,578    20,535        187,360    32,129     (74,515)   (4,649)      (15,919)   (20,193)      (25,270)    (5,445)    (108,351)             276,883    22,377
Vessels              5,799      107           7,089      242      (3,003)      (39)       (2,416)      (132)            211      (11)        (908)       -        6,772      167
Aircraft             8,247       23          40,894       30     (31,617)      (12)         (246)       (10)              -       (2)        (524)       -       16,754       29
Vehicles            53,756    7,543          83,876   16,220     (44,309)   (5,221)      (42,005)   (12,098)        (4,372)     (686)        (421)       -       46,525    5,758
Subtotal           637,214   28,788         366,771   48,772    (164,799)   (9,991)      (97,272)   (32,555)       (49,398)   (6,178)    (134,993)       -      557,523   28,836
Grand Total     $1,236,301   28,788      $1,304,736   48,772   $(228,490)   (9,991)    $(997,945)   (32,555)      $171,245    (6,178)   $(138,887)       -   $1,346,960   28,836




                                                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                                                       47
Note 9: Distributions Payable (state and local agencies and foreign governments)

Distributions Payable (state and local agencies and foreign governments) amounted to $111.3 million
and $375.8 million as of September 30, 2011 and 2010, respectively. Fund management recognizes
as a liability a portion (based on the average of historical pay-out percentage) of the equitable sharing
requests, that were approved or in final stages of approval on September 30, 2011 and 2010,
respectively. Prior experience with the nature of this account indicated that a substantial portion of
these requests were certain to be paid out by the Fund during the following fiscal year.

Note 10: Net Position

Cumulative Results

The following summarizes components of cumulative results as of and for the years ended September
30, 2011 and 2010, respectively, (dollars in thousands):

                                                             2011               2010
                 Retained Capital                          $ 622,905       $   293,273
                 Unliquidated Obligations                     363,166          301,240
                 Net Results of Operations                    466,851          391,558
                                                          $ 1,452,922      $   986,071

Unliquidated Obligations

The following summarizes the components of unliquidated obligations as of September 30, 2011 and
2010 respectively, (dollars in thousands):
                                                        2011             2010
                 Equitable Sharing                   $ 150,392        $ 52,606
                 Mandatory                              212,774          248,634
                                                     $ 363,166        $ 301,240

Note 11: Related Party Transactions

The Fund reimbursed agencies for the purchase of certain capital assets. These assets are reported by
the participating agencies in their financial statements.

Note 12: Super Surplus

31 USC 9703 (g)(4)(B) allows for the expenditure, without fiscal year limitation, after the reservation
of amounts needed to continue operations of the Fund. This “Super Surplus” balance may be used
for law enforcement activities of any federal agency.

Amounts distributed to other federal agencies for law enforcement activities under “Super Surplus”
requirements amounts to $102.5 million and $78.9 million in fiscal years 2011 and 2010,
respectively.

    48          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
Note 13: Secretary’s Enforcement Fund

31 USC 9703 (b)(5) is another category of permanent indefinite authority. These funds are available
to the Secretary, without further action by Congress and without fiscal year limitation, for federal law
enforcement purposes of Treasury law enforcement organizations. The source of Section 9703(b)(5)
funds is equitable sharing payments received from the Department of Justice and the U.S. Postal
Service (USPS) representing Treasury's share of forfeiture proceeds from Justice and USPS cases.

Amounts distributed for federal law enforcement purposes of Treasury law enforcement
organizations amounted to $1 million and $2.9 million in fiscal years 2011 and 2010, respectively.

Note 14: Commitments and Contingencies

COMMITMENTS

A portion of the equitable sharing requests that were in final stages of approval are recognized as
liabilities as of September 30 (See also Note 9, Distributions Payable).

In addition to the amounts estimated above, there are other amounts, which may ultimately be shared,
that are not identified at this time.

CONTINGENCIES

In the opinion of the Fund’s management and legal counsel, there are no pending or threatened
litigation claims for which the amount of potential loss, individually, or in aggregate, will have a
material adverse effect on the Fund’s financial statements.

Note 15: Disclosures Related to the Statements of Net Cost

Gross costs and earned revenue related to Law Enforcement Programs administered by the Fund are
presented in Treasury’s budget functional classification (in thousands) as set out below:

                                                         2011            2010
       Gross Costs                                     $ 177,070       $ 168,029
       Earned Revenues                                            -               -

       Net Costs                                       $ 177,070       $ 168,029

The Fund falls under the Treasury’s budget functional classification related to Administration of
Justice.

Note 16: Disclosures Related to the Statements of Budgetary Resources

The Fund’s net amount of budgetary resources obligated at the end of fiscal years 2011 and 2010
were $539.1 million and $745.7 million, respectively. This amount is fully covered by cash on hand
in the Fund and Entity Investments. The Fund does not have borrowing or contract authority and,
therefore, has no repayment requirements, financing sources for repayment, or other terms of

                          SECTION III - FINANCIAL STATEMENTS AND NOTES                               49
borrowing authority. There are no legal arrangements, outside of normal government wide
restrictions, specifically affecting the Fund’s use of unobligated balances of budget authority.

Adjustments to budgetary resources available at the beginning of fiscal years 2011 and 2010 consist
of the following (in thousands):

                                                                 2011            2010
             Recoveries of Prior Year Unpaid Obligations $       57,464      $    49,620

Recoveries of prior year obligations are the difference between amounts that Fund management
obligated (including equitable sharing) and amounts subsequently approved for payment against
those obligations.

Note 17: Dedicated Collections

The Fund is classified as a special fund. All its activities are reported as dedicated collections held
for later use.

Note 18: Payments in Lieu of Forfeiture, Net of Refund

The following summarizes Payments in Lieu of Forfeiture, Net of Refunds as of September 30, 2011
and 2010, respectively, (dollars in thousands):

                                                           2011               2010
                 Payments in Lieu of Forfeiture          $ 12,653           $ 6,656
                 Refunds                                    (69,679)         (36,605)
                 Total                                    ($ 57,026)       ($ 29,949)




   50          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
Note 19: Reconciliation of Net Cost of Operations (Proprietary) to Budget

The reconciliation of Net Cost of Operations to Budget demonstrates the relationship between the
Fund’s proprietary (net cost of operations) and budgetary accounting (net obligations) information.

                                                                          2011           2010
  Resources Used to Finance Activities:
    Budgetary resources obligated
        Obligations incurred                                         $   590,414 $      852,078
        Less: Spending authority from offsetting
           Collections and recoveries                                    (57,464)       (49,620)
        Net Obligations                                                  532,950        802,458
    Other resources
        Transfers – out                                                  (103,418)      (81,795)
  Total Resources Used to Finance Activities                              429,532       720,663

  Resources Used to Finance Items not Part of the Net
   Cost of Operations
         Change in budgetary resources obligated for goods,
          services and benefits ordered but not yet provided              (57,251)      (50,768)
         Other resources or adjustments to net obligated
          resources that do not affect net cost of operations
            Mortgages and claims                                           (4,795)       (4,298)
            Refunds                                                       (69,679)      (36,605)
            Equitable Sharing (federal, state/local and foreign)          (96,476)     (456,944)
            Victim restitution                                            (24,261)       (4,019)
  Total Resources Used to Finance Items not Part of the Net
   Cost of Operations                                                    (252,462)     (552,634)
  Total Resources Used to Finance the Net Cost of Operations              177,070       168,029
  Net Cost of Operations                                             $   177,070 $      168,029




                        SECTION III - FINANCIAL STATEMENTS AND NOTES                              51
THIS PAGE INTENTIONALLY LEFT BLANK
            SECTION IV

REQUIRED SUPPLEMENTAL INFORMATION

           (UNAUDITED)
THIS PAGE INTENTIONALLY LEFT BLANK
Intragovernmental Amounts – Assets (Dollars in thousands)
                                                    2011                                                   2010
                               Fund                                                Fund
                              Balance        Accounts                             Balance           Accounts
                                with        Receivable/                             with           Receivable/
      Partner Agency          Treasury       Advances          Investments        Treasury          Advances           Investments
 Treasury                    $ 23,094 -     $              -   $           -     $        33,490   $              -    $          -
 Departmental Offices                -                 79                  -     $           -     $             266   $          -
 Bureau of Public Debt               -                     -       2,309,275                 -                    -        2,095,911

 Totals                      _ $ 23.094     $          79      $ 2,309,275       $        33,490   $             266   $ 2,095,911

Intragovernmental Amounts – Liabilities (Dollars in thousands)

                                                                             2011                  2010
                                                                           Accounts              Accounts
                    Partner Agency                                         Payable               Payable
                    Department of Justice                              $              -      $         4,205

                    Departmental Offices                                        6,574                  1,171

                    Fincen                                                      6,340                  4,295

                    Tax and Trade                                                    83                    470

                    Internal Revenue Service                                   43,256               48,436
                    Totals                                             $       56,253        $      58,577

Intragovernmental Amounts – Revenues and Costs (Dollars in thousands)

                                                    2011                                                   2010

                              Cost to Generate          Costs to Generate         Cost to Generate                Costs to Generate
                                  Exchange               Non-Exchange                Exchange                      Non-Exchange
                             Intragovernmental         Intragovernmental         Intragovernmental               Intragovernmental
     Budget Functions             Revenue                   Revenue                   Revenue                         Revenue

Administration of
  Justice                    $                  -      $             115,118     $                     -         $            105,273




52           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
Intragovernmental Amounts – Non-exchange Revenue (Dollars in thousands):

                                                     2011                                2010
              Partner Agency                In                  Out             In              Out


 Department of Justice                  $        -          $         610   $        -      $     3,792
 Department of Homeland Security                 -               58,529              -           36,599
 Department of Treasury                          -                    284            -                141
 Internal Revenue Service                        -               30,131              -           35,404
 Financial Crimes Enforcement Network            -               13,633              -            3,944
 Tax and Trade                                   -                    231                         1,122
 Department of Labor                             -                      -            -                300
 Department of Commerce                          -                      -            -                493
  Totals                                $        -          $   103,418     $        -      $    81,795




                  SECTION IV – REQUIRED SUPPLMENTAL INFORMATION (UNAUDITED)                             53
          SECTION V

OTHER ACCOMPANYING INFORMATION

         (UNAUDITED)
                                          TREASURY FORFEITURE FUND
                              Equitable Sharing Summarized by State and U.S. Territories
                                        For the Year Ended September 30, 2011
                                                 (Dollars in Thousands)
                                                      (Unaudited)

     State/U.S. Territories                                    Currency Value              Property Value

     Alabama                                                      $        950               $          -
     Alaska                                                                   -                        4
     Arizona                                                               667                          -
     Arkansas                                                              484                          -
     California                                                         10,473                        88
     Colorado                                                              260                         1
     Connecticut                                                            29                          -
     D.C. Washington                                                        63                          -
     Delaware                                                              315                          -
     Florida                                                             4,980                       134
     Georgia                                                             2,645                        38
     Guam                                                                  666                          -
     Hawaii                                                                237                          -
     Idaho                                                                 198                       365
     Illinois                                                            2,394                        12
     Indiana                                                               334                          -
     Iowa                                                                  232                          -
     Kansas                                                                 64                        24
     Kentucky                                                              396                        43
     Louisiana                                                             317                        14
     Maine                                                                  26                          -
     Maryland                                                            2,642                        16
     Massachusetts                                                         981                          -
     Michigan                                                            1,045                       524
     Minnesota                                                             155                        37
     Mississippi                                                           195                          -
     Missouri                                                            1,677                          -
     Montana                                                                28                          -
     Nebraska                                                               56                          -
     Nevada                                                                124                          -
     New Jersey                                                          5,924                          -
     New Hampshire                                                         159                          -
     New Mexico                                                            103                       117
     New York                                                           12,400                       463
     North Carolina                                                      2,747                        14
     North Dakota                                                             -                         -
     Ohio                                                                2,909                       159
     Oklahoma                                                              736                         3
     Oregon                                                                619                        37
     Pennsylvania                                                          681                        18
     Puerto Rico                                                           213                          -
     Rhode Island                                                             -                         -
     South Carolina                                                        204                       193
     South Dakota                                                             -                         -
     Tennessee                                                             176                        38
     Texas                                                              13,471                     1,047
     Utah                                                                  582                       352
     Subtotal carried forward                                         $ 73,557                    $3,741


54                TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
                                          TREASURY FORFEITURE FUND
                              Equitable Sharing Summarized by State and U.S. Territories
                                        For the Year Ended September 30, 2011
                                                (Dollars in Thousands)
                                                     (Unaudited)

     State/U.S. Territories                                    Currency Value                  Property Value

     Subtotal brought forward                                        $73,557                          $3,741
     Vermont                                                              18                               -
     Virgin Islands                                                       26                               -
     Virginia                                                            989                               5
     Washington                                                          990                               7
     West Virginia                                                        43                               -
     Wisconsin                                                            89                               -
     Wyoming                                                              68                               -

              Totals                                                 $75,780                          $3,753



Summarized above are the currency and property values of assets forfeited and shared with state and local
agencies and U.S. Territories participating in the seizure. This supplemental schedule is not a required part of
the financial statement of the Department of the Treasury Forfeiture Fund. Information presented on this
schedule represents assets physically transferred during the year and, therefore, does not agree with total assets
shared with state and local agencies in the financial statements. In addition, the above numbers do not include
the adjustment to present property distributed at net realizable value.




                          SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                 55
                                TREASURY FORFEITURE FUND
              Uncontested Seizures of Currency and Monetary Instruments Valued Over
             $100 Thousand Taking More Than 120 Days from Seizure to Deposit in Fund
                              For the Year Ended September 30, 2011
                                       (Dollars in Thousands)



31 U.S.C. 9703(f)(2)(E) requires the Secretary of the Treasury to report annually to Congress
uncontested seizures of currency or proceeds of monetary instruments over $100 thousand which were
not deposited in the Department of the Treasury Forfeiture Fund within 120 days of the seizure date.
There were 52 administrative seizures over $100 thousand over 120 days old totaling $17,156 that had not
been transferred from the Seized Currency Suspense Account to the Treasury Forfeiture Fund as of the
end of FY 2011.




56             TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
                                    TREASURY FORFEITURE FUND
                                     Analysis of Revenue and Expenses
                                             and Distributions
                                  For the Year Ended September 30, 2011
                                          (Dollars in Thousands)

  Revenue, Expenses and Distributions by Asset Category:
                                                                                             Expenses and
                                                                             Revenue         Distributions

  Vehicles                                                                    $13,994             $124,208
  Vessels                                                                       3,887              158,254
  Aircraft                                                                      3,887               50,983
  General Property                                                             12,439              502,306
  Real Property                                                                43,535               19,675
  Currency and monetary instruments                                           864,808               87,124
                                                                              942,550              942,550
  Less:
    Mortgages and claims                                                       (4,795)             (4,795)
    Refunds                                                                   (69,679)            (69,679)
  Add:
    Excess of net revenues and financing sources over total program                 --                   --
        expenses
  Total                                                                     $ 868,076            $ 868,076

  Revenue, Transfers, Expenses and Distributions by Type of
  Disposition:
  Sales of property and forfeited currency and monetary instruments           818,254              174,409
  Reimbursed storage costs                                                      3,559               94,255
  Assets shared with state and local agencies                                  68,373               68,373
  Assets shared with other federal agencies                                    27,927               27,927
  Assets shared with foreign countries                                            176                  176
  Victim Restitution                                                           24,261               24,261
  Destructions                                                                      --             113,106
  Pending disposition                                                               --             440,043
                                                                              942,550              942,550
  Less:
    Mortgages and claims                                                       (4,795)             (4,795)
    Refunds                                                                   (69,679)            (69,679)
  Add:
    Excess of net revenues and financing sources over total program                 --                   --
        expenses
  Total                                                                     $ 868,076            $ 868,076

The revenue amount of $868,076 is from the Statement of Changes in Net Position. This supplemental
schedule “Analysis of Revenues, Expenses and Distributions” is required under the Treasury Forfeiture Fund
Act of 1992.


                      SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                  57
                                  TREASURY FORFEITURE FUND
                               Information Required by 31 U.S.C. 9703(f)
                                For the Year Ended September 30, 2011
                                        (Dollars in Thousands)

The Treasury Forfeiture Fund Act of 1992, 31 U.S.C. 9703(f), requires the Secretary of the Treasury to
transmit to Congress, no later than February 1, of each year, certain information. The following
summarizes the required information.

(1)   A report on:

      (A) The estimated total value of property forfeited with respect to which funds were not deposited in the
          Department of the Treasury Forfeiture Fund during the preceding fiscal year under any law
          enforced or administered by the Department of the Treasury law enforcement organizations of the
          United States Coast Guard, in the case of fiscal years beginning after 1993.

          As reported in the audited financial statements, at September 30, 2011, the Fund had forfeited
          property held for sale of $59,497. The realized proceeds will be deposited in the Fund when
          the property is sold.

          Upon seizure, currency and other monetary instruments not needed for evidence in judicial
          proceedings are deposited in a Customs and Border Protection (CBP) suspense account.
          Upon forfeiture, it is transferred to the Treasury Forfeiture Fund. At September 30, 2011,
          there was $19,848 of forfeited currency and other monetary instruments that had not yet been
          transferred to the Fund. This is reported as a part of “Cash and Other Monetary Assets” in
          the audited financial statements.

      (B) The estimated total value of all such property transferred to any state or local law enforcement
          agency.

          The estimated total value of all such property transferred to any state or local law
          enforcement bureau is summarized by state and U.S. territories. Total currency transferred
          was $75,780 and total property transferred was $3,753 at appraised value.

(2)   A report on:

      (A) The balance of the Fund at the beginning of the preceding fiscal year.

          The total net position of the Treasury Forfeiture Fund on September 30, 2010 which became
          the beginning balance for the Fund on October 1, 2011, as reported in the audited financial
          statements is $986,071.




58             TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
                            TREASURY FORFEITURE FUND
                         Information Required by 31 U.S.C. 9703(f)
                          For the Year Ended September 30, 2011
                                  (Dollars in Thousands)

(B) Liens and mortgages paid and the amount of money shared with federal, state, local and foreign law
    enforcement bureaus during the preceding fiscal year.

    Mortgages and claims expense, as reported in the audited financial statements, was $4,795.
    The amount actually paid on a cash basis was not materially different.

    The amount of forfeited currency and property shared with federal, and distributed to state,
    local and foreign law enforcement bureaus as reported in the audited financial statements was
    as follows:

                                                               Amount
                      State and local                         $68,373
                      Foreign countries                           176
                      Other federal agencies                   27,927
                      Victim restitution                        24,261

(C) The net amount realized from the operations of the Fund during the preceding fiscal year, the
    amount of seized cash being held as evidence, and the amount of money that has been carried over
    into the current fiscal year.

    The net cost of operations of the Fund as shown in the audited financial statements is
    $177,070.

    The amount of seized currency not on deposit in the Fund’s suspense account at September
    30, 2011, was $99,918. This amount includes some funds in the process of being deposited at
    year-end; cash seized in August or September 2011 that is pending determination of its
    evidentiary value from the U.S. Attorney; and the currency seized for forfeiture being held as
    evidence.

    On a budgetary basis, unobligated balances as originally reported on the Office of
    Management and Budget Reports, SF-133, “Report on Budget Execution” was approximately
    $646,405 for fiscal year 2011. This excludes $422,600 in FY 2011 rescinded authority that is
    classified as “temporary.” If this figure is added to the unobligated balances at the end of FY
    2011, the figure becomes $1,069,005.




              SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                59
                                  TREASURY FORFEITURE FUND
                               Information Required by 31 U.S.C. 9703(f)
                                For the Year Ended September 30, 2010
                                        (Dollars in Thousands)

     (D) Any defendant’s property not forfeited at the end of the preceding fiscal year, if the equity in such
         property is valued at $1 million or more.

         The total approximate value of such property for the Treasury Forfeiture Fund, at estimated
         values determined by bureau and contractor’s officials, and the number of seizures is as
         follows:

                 Bureau                          Amount                       Number
                 CBP                             $114,267                  31 seizures
                 IRS                              376,791                 109 seizures
                 U.S. Secret Service               59,356                  20 seizures

     (E) The total dollar value of uncontested seizures of monetary instruments having a value of over $100
         thousand which, or the proceeds of which, have not been deposited into the Fund within 120 days
         after the seizure, as of the end of the preceding fiscal year.

         The total dollar value of such seizures is $17,156. This is also documented on page 56.

     (F) The balance of the Fund at the end of the current fiscal year.

         The total net position of the Fund at September 30, 2011, as reported in the audited financial
         statements is $1,452,922.

     (G) The net amount, if any, of the excess unobligated amounts remaining in the Fund at the end of the
         preceding fiscal year and available to the Secretary for Federal law enforcement related purposes.

         There is no cap on amounts that can be carried forward into Fiscal Year 2011 per the fiscal
         year 1997 Omnibus Appropriations Act (PL 104-208).

     (H) A complete set of audited financial statements prepared in a manner consistent with the
         requirements of the Chief Financial Officers Act of 1990.

         The audited financial statements, including the Independent Auditor’s Report, are found in
         Sections II and III.

     (I) An analysis of income and expense showing revenue received or lost: (i) by property category
         (such as general property, vehicles, vessels, aircraft, cash, and real property); and (ii) by type of
         disposition (such as sale, remission, cancellation, placement into official use, sharing with state and
         local agencies, and destruction).

         A separate schedule is presented on page 57.


60            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2011
THIS PAGE INTENTIONALLY LEFT BLANK
THIS PAGE INTENTIONALLY LEFT BLANK
